UNITED STATES DEPARTMENT OF DEFENSE
AGENCY FINANCIAL REPORT
       FISCAL YEAR 2013


 FINANCIAL SECTION
This Page Left Blank Intentionally
U.S. Department of Defense Agency Financial Report for FY 2013



FINANCIAL SECTION

INDEPENDENT AUDITOR’S REPORT




                                                                 Financial Section
                                       51
U.S. Department of Defense Agency Financial Report for FY 2013




                                                                 Financial Section
                                       52
U.S. Department of Defense Agency Financial Report for FY 2013




                                                                 Financial Section
                                       53
U.S. Department of Defense Agency Financial Report for FY 2013




                                                                 Financial Section
                                       54
U.S. Department of Defense Agency Financial Report for FY 2013




                                                                 Financial Section
                                       55
U.S. Department of Defense Agency Financial Report for FY 2013




                                                                 Financial Section
                                       56
U.S. Department of Defense Agency Financial Report for FY 2013




                                                                 Financial Section
                                       57
U.S. Department of Defense Agency Financial Report for FY 2013




                                                                 Financial Section
                                       58
U.S. Department of Defense Agency Financial Report for FY 2013




                                                                 Financial Section
                                       59
U.S. Department of Defense Agency Financial Report for FY 2013




                                                                 Financial Section
                                       60
U.S. Department of Defense Agency Financial Report for FY 2013




                                                                 Financial Section
                                       61
U.S. Department of Defense Agency Financial Report for FY 2013




                                                                 Financial Section
                                       62
U.S. Department of Defense Agency Financial Report for FY 2013




                                                                 Financial Section
                                       63
U.S. Department of Defense Agency Financial Report for FY 2013


PRINCIPAL FINANCIAL STATEMENTS AND NOTES

LIMITATIONS OF THE FINANCIAL STATEMENTS
The principal financial statements have been prepared to report the financial position and
results of operations of the Department, pursuant to the requirements of 31 U.S.C. 3515(b).
The statements are prepared from accounting records of the Department in accordance with
Office of Management And Budget (OMB) Circular No. A-136 and, to the extent possible,
U.S. Generally Accepted Accounting Principles (USGAAP). The statements, in addition to the
financial reports, are used to monitor and control budgetary resources, which are prepared
from the same records. The statements should be read with the realization that they are for
a component of the U.S. Government, a sovereign entity.

The financial statements of the Department include four principal statements listed in
Figure 19.

The financial statements reflect the aggregate financial posture of the Department and
include both the proprietary (Federal accounting standards) and budgetary resources of the
Department. The Department is large and complex with an asset base of $2.2 trillion, and
more than 3 million military and civilian employees on installations in every state and
around the world.

Figure 19. Four Principal Financial Statements
 Statement             What Information It Provides
 Balance Sheet         Reflects the Department’s financial position as of the statement date
                       (September 30, 2013). The assets are the amount of future economic benefits owned or
                       managed by the Department. The liabilities are amounts owed by the Department. The
                       net position is the difference between the assets and liabilities.
 Statement of Net      Shows separately the components of the net cost of the Department’s operations for the
 Cost                  period. Net cost is equal to the gross cost incurred by the Department less any exchange
                       revenue earned from its activities.
 Statement of          Presents the sum of the cumulative results of operations since inception and unexpended
 Changes in Net        appropriations provided to the Department that remain unused at the end of the fiscal
 Position              year. The statement focuses on how the net cost of operations is financed. The resulting
                       financial position represents the difference between assets and liabilities as shown on the
                       consolidated balance sheet.
 Statement of          Provides information about how budgetary resources were made available as well as their
 Budgetary Resources   status at the end of the period. It is the only financial statement exclusively derived from
                       the Department’s budgetary general ledger in accordance with budgetary accounting
                       rules.




                                                                                              Financial Section
                                                      64
U.S. Department of Defense Agency Financial Report for FY 2013


 Department of Defense Consolidated Balance Sheet
 Agency Wide                                                                                            Dollars in Millions
                                                                                    2013            Restated 2012
 As of September 30, 2013 and 2012                                               Consolidated       Consolidated
 ASSETS (Note 2)
 Intragovernmental:
   Fund Balance with Treasury (Note 3)                                       $        482,661.7     $          512,121.6
   Investments (Note 4)                                                               711,497.5                641,666.5
   Accounts Receivable (Note 5)                                                         1,284.2                  1,439.6
   Other Assets (Note 6)                                                                1,757.6                  1,583.2
   Total Intragovernmental Assets                                            $      1,197,201.0     $        1,156,810.9
 Cash and Other Monetary Assets (Note 7)                                                1,529.7                  1,822.0
 Accounts Receivable, Net (Note 5)                                                     10,456.2                 11,522.4
 Loans Receivable (Note 8)                                                              1,267.7                    957.5
 Inventory and Related Property, Net (Note 9)                                         253,997.5                243,299.7
 General Property, Plant and Equipment, Net (Note 10)                                 639,611.9                601,458.0
 Investments (Note 4)                                                                   3,333.9                  3,255.0
 Other Assets (Note 6)                                                                 72,466.9                 66,601.2
 TOTAL ASSETS                                                                $      2,179,864.8     $        2,085,726.7
 Stewardship Property, Plant & Equipment (Note 10)

 LIABILITIES (Note 11)
 Intragovernmental:
   Accounts Payable (Note 12)                                                $          1,574.7     $             1,762.9
   Debt (Note 13)                                                                       1,174.7                     952.6
   Other Liabilities (Note 15)                                                         12,887.7                  12,941.6
   Total Intragovernmental Liabilities                                       $         15,637.1     $            15,657.1
 Accounts Payable (Note 12)                                                            20,149.1                 19,492.0
 Military Retirement and Other Federal Employment Benefits (Note 17)                2,280,567.8              2,323,924.3
 Environmental and Disposal Liabilities (Note 14)                                      58,333.9                 62,602.6
 Loan Guarantee Liability (Note 8)                                                         45.8                     12.7
 Other Liabilities (Note 15)                                                           37,393.5                 36,308.1
 TOTAL LIABILITIES                                                           $      2,412,127.2     $        2,457,996.8
 Commitments & Contingencies (Note 16)

 NET POSITION
 Unexpended Appropriations – Other Funds                                     $        499,735.3     $          528,955.6
 Cumulative Results of Operations – Funds From Dedicated Collections
                                                                                       12,707.8                  11,967.6
 (Note 23)
 Cumulative Results of Operations – Other Funds                                      (744,705.5)              (913,193.3)
 TOTAL NET POSITION                                                          $       (232,262.4)    $         (372,270.1)

 TOTAL LIABILITIES AND NET POSITION                                          $      2,179,864.8     $        2,085,726.7




The accompanying notes are an integral part of these financial statements.


                                                                                                   Financial Section
                                                                        65
U.S. Department of Defense Agency Financial Report for FY 2013


 Department of Defense Consolidated Statement of Net Cost
 Agency Wide                                                                                            Dollars in Millions
                                                                                    2013                2012
 For the Years Ended September 30, 2013 and 2012                                 Consolidated        Consolidated
 Program Costs
 Gross Costs                                                                 $        695,856.1     $          781,731.1
   Military Retirement Benefits                                                         64,422.3                 85,570.4
   Civil Works                                                                           9,756.7                 10,967.2
   Military Personnel                                                                 146,052.1                150,330.5
   Operations, Readiness & Support                                                    292,744.2                295,704.1
   Procurement                                                                          76,216.1               130,578.8
   Research, Development, Test & Evaluation                                             70,321.0                 76,772.6
   Family Housing & Military Construction                                               36,343.7                 31,807.5
   (Less: Earned Revenue)                                                             (75,009.7)               (83,304.8)
 Net Cost before Losses/(Gains) from Actuarial Assumption
                                                                             $        620,846.4     $          698,426.3
 Changes for Military Retirement Benefits
   Losses/(Gains) from Actuarial Assumption Changes for Military
                                                                                      (62,838.6)                 70,427.3
   Retirement Benefits
 Net Cost of Operations                                                      $        558,007.8     $          768,853.6




The accompanying notes are an integral part of these financial statements.


                                                                                                   Financial Section
                                                                        66
U.S. Department of Defense Agency Financial Report for FY 2013


  Department of Defense Consolidated Statement of Changes in Net Position
  Agency Wide                                                                                          Dollars in Millions
                                                                                    2013              Restated 2012
  For the Years Ended September 30, 2013 and 2012                                Consolidated         Consolidated
  Cumulative Results Of Operations
  Beginning Balances                                                         $      (901,225.7)   $        (861,349.6)
  Prior Period Adjustments:
  Changes in accounting principles                                                          0.0                     0.0
  Corrections of errors                                                                     0.0                 1,005.7
  Beginning balances, as adjusted (Includes Funds from Dedicated
                                                                             $      (901,225.7)   $        (860,343.9)
  Collections – See Note 23)

  Budgetary Financing Sources:
  Appropriations used                                                                687,146.0               730,579.5
  Nonexchange revenue                                                                  2,890.5                 2,689.4
  Donations and forfeitures of cash and cash equivalents                                   75.1                   29.7
  Transfers in/out without reimbursement                                                 142.8                   133.6
  Other                                                                                  (84.2)                (146.4)
  Other Financing Sources
  Donations and forfeitures of property                                                     9.9                     37.5
  Transfers in/out without reimbursement                                                 (14.6)                     66.1
  Imputed financing                                                                    4,896.8                  5,048.1
  Other                                                                               32,173.5               (10,465.7)
  Total Financing Sources                                                    $       727,235.8    $          727,971.8
  Net Cost of Operations (+/-)                                                       558,007.8               768,853.6
  Net Change                                                                 $       169,228.0    $          (40,881.8)
  Cumulative Results of Operations (Includes Funds from Dedicated
                                                                             $      (731,997.7)   $        (901,225.7)
  Collections – See Note 23)

  Unexpended Appropriations
  Beginning Balances (Includes Funds from Dedicated Collections –
                                                                                     528,955.6               541,329.1
  See Note 23)
  Prior Period Adjustments:                                                                0.0                     0.0
  Correction of Error                                                                      0.0                 (955.1)
  Beginning balances, as adjusted                                            $       528,955.6    $          540,374.0

  Budgetary Financing Sources:
  Appropriations received                                                             710,120.8              736,782.2
  Appropriations transferred in/out                                                     (208.9)                (391.3)
  Other adjustments                                                                  (51,986.2)             (17,229.8)
  Appropriations used                                                               (687,146.0)            (730,579.5)
  Total Budgetary Financing Sources (Includes Funds from
                                                                             $       (29,220.3)   $          (11,418.4)
  Dedicated Collections – See Note 23)
  Unexpended Appropriations (Includes Funds from Dedicated
                                                                             $       499,735.3    $          528,955.6
  Collections – See Note 23)
  Net Position                                                               $      (232,262.4)   $        (372,270.1)




The accompanying notes are an integral part of these financial statements.


                                                                                                  Financial Section
                                                                        67
U.S. Department of Defense Agency Financial Report for FY 2013


 Department of Defense Combined                                                   Budgetary                    Non-Budgetary
 Statement of Budgetary Resources                                             Financing Accounts             Financing Accounts
 Agency Wide
 For the Years Ended September 30, 2013
 and 2012                                                                  2013               2012            2013            2012
                                                                         Combined           Combined        Combined        Combined
 Page 1 of 2
 Dollars in Millions
 Budgetary Resources
 Unobligated balance, brought forward, October 1                     $        145,692.5 $     162,271.1 $         15.5 $          17.5
   Unobligated balance brought forward, October 1,
                                                                              145,692.5       162,271.1           15.5            17.5
   as adjusted
 Recoveries of prior year unpaid obligations                                    63,172.6        65,533.9           0.0             0.0
 Other changes in unobligated balance                                         (13,817.9)      (12,952.1)           0.0             0.0
 Unobligated balance from prior year budget
                                                                              195,047.2       214,852.9           15.5            17.5
 authority, net
 Appropriation (discretionary and mandatory)                                  733,535.9       792,178.8            0.0             0.0
 Borrowing Authority (discretionary and mandatory)                                  0.0             0.0           26.9           172.6
 Contract authority (discretionary and mandatory)                              65,506.0        80,486.2            0.0             0.0
 Spending authority from offsetting collections
                                                                              103,712.7       117,242.4           83.2            62.6
 (discretionary and mandatory)
 Total Budgetary Resources                                           $ 1,097,801.8 $ 1,204,760.3 $               125.6 $         252.7
 Status of Budgetary Resources
 Obligations incurred                                                $        953,988.4 $ 1,059,067.8 $           78.8 $         237.2
 Unobligated balance, end of year:
   Apportioned                                                           109,896.8     115,696.1                   0.0             1.6
   Exempt from Apportionment                                               4,046.6       3,976.1                   0.0             0.0
   Unapportioned                                                          29,870.0      26,020.3                  46.8            13.9
 Total unobligated balance, end of year                              $   143,813.4 $   145,692.5 $                46.8 $          15.5
 Total Budgetary Resources                                           $ 1,097,801.8 $ 1,204,760.3 $               125.6 $         252.7
 Change in Obligated Balance
    Unpaid obligations:
 Unpaid obligations, brought forward, October 1                      $         468,570.2 $   454,926.2 $          541.8 $         569.1
 Obligations incurred                                                          953,988.4   1,059,067.8             78.8           237.2
 Outlays (Gross)                                                             (922,020.8)   (979,889.9)          (319.9)         (264.5)
 Recoveries of prior year unpaid obligations                                  (63,172.6)     (65,533.9)             0.0             0.0
 Unpaid obligations, end of year                                               437,365.2     468,570.2            300.7           541.8
    Uncollected payments:
 Uncollected pymts, Fed sources, brought forward,                             (77,953.4)      (75,184.3)         (83.5)          (99.9)
 Oct 1
 Change in uncollected pymts, Fed sources                                          749.5       (2,769.1)           31.1            16.4
 Uncollected pymts, Fed sources, end of year                                  (77,203.9)      (77,953.4)         (52.4)          (83.5)
    Memorandum Entries:
 Obligated balances, start of year                                   $        390,616.8 $     379,741.9 $        458.3 $         469.2
 Obligated balance, end of year                                      $        360,161.3 $     390,616.8 $        248.3 $         458.3




The accompanying notes are an integral part of these financial statements.


                                                                                                                 Financial Section
                                                                         68
U.S. Department of Defense Agency Financial Report for FY 2013


 Department of Defense Combined                                                   Budgetary                    Non-Budgetary
 Statement of Budgetary Resources                                             Financing Accounts             Financing Accounts
 Agency Wide
 For the Years Ended September 30, 2013
 and 2012                                                                  2013               2012            2013           2012
                                                                         Combined           Combined        Combined       Combined
 Page 2 of 2
 Dollars in Millions
 Budgetary Authority and Outlays, Net:
 Budget Authority, gross (discretionary and
                                                                     $        902,754.6 $     989,907.4 $        110.1 $        235.2
 mandatory)
 Actual offsetting collections (discretionary and
                                                                             (167,910.0)     (190,586.0)        (126.7)         (92.6)
 mandatory)
 Change in uncollected customer payments from
                                                                                  749.5        (2,769.1)          31.1            16.4
 Federal sources (discretionary and mandatory)
 Anticipated offsetting collections ( discretionary and
                                                                                     0.0             0.0           0.0             0.0
 mandatory)
 Budget Authority, net (discretionary and
                                                                     $        735,594.1 $     796,552.3 $         14.5 $        159.0
 mandatory)
 Outlays, gross (discretionary and mandatory)                        $        922,020.8 $     979,889.9 $        319.9 $        264.5
 Actual offsetting collections (discretionary and
                                                                             (167,910.0)     (190,586.0)        (126.7)         (92.6)
 mandatory)
 Outlays, net (discretionary and mandatory)                                   754,110.8       789,303.9          193.2          171.9
 Distributed offsetting receipts                                              (82,767.6)      (79,238.4)           0.0            0.0
 Agency Outlays, net (discretionary and
                                                                     $        671,343.2 $     710,065.5 $        193.2 $        171.9
 mandatory)




The accompanying notes are an integral part of these financial statements.


                                                                                                                 Financial Section
                                                                         69
U.S. Department of Defense Agency Financial Report for FY 2013


NOTE 1. SIGNIFICANT ACCOUNTING POLICIES
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of
operations of the Department of Defense (DoD), as required by the Chief Financial Officers
Act of 1990, expanded by the Government Management Reform Act of 1994, and other
appropriate legislation. The financial statements have been prepared from the books and
records of the Department in accordance with, to the extent possible, U.S. generally
accepted accounting principles (USGAAP) promulgated by the Federal Accounting Standards
Advisory Board (FASAB); the (OMB) Circular No. A-136, “Financial Reporting
Requirements;” and the DoD, Financial Management Regulation (FMR). The accompanying
financial statements account for all resources for which the Department is responsible
unless otherwise noted. Information relative to classified assets, programs, and operations
is excluded from the statements or otherwise aggregated and reported in such a manner
that it is not discernible.
The Department is unable to fully implement all elements of USGAAP and
OMB Circular No. A-136, due to limitations of financial and nonfinancial management
processes and systems that support the financial statements. The Department derives
reported values and information for major asset and liability categories largely from
nonfinancial systems, such as inventory and logistics systems. These systems were
designed to support reporting requirements for maintaining accountability over assets and
reporting the status of federal appropriations rather than preparing financial statements in
accordance with USGAAP. The Department continues to implement process and system
improvements addressing these limitations.
The Department has 13 auditor-identified material weaknesses: (1) Financial Management
Systems; (2) Fund Balance with Treasury (FBWT); (3) Accounts Receivable; (4) Inventory;
(5) Operating Materials and Supplies (OM&S); (6) General Property, Plant, and Equipment;
(7) Government Property in Possession of Contractors; (8) Accounts Payable;
(9) Environmental Liabilities; (10) Statement of Net Cost; (11) Intragovernmental
Eliminations; (12) Accounting Entries; and (13) Reconciliation of Net Cost of Operations to
Budget.

1.B. Mission of the Reporting Entity
The Department was established by the National Security Act of 1947. The Department
provides the military forces needed to deter war and protect the security of our country.
Since the creation of America’s first army in 1775, the Department and predecessor
organizations have evolved into a global presence with a worldwide infrastructure dedicated
to defending the United States by deterring and defeating aggression and coercion in critical
regions.

The Department includes the Military Departments and the Defense Agencies. The Military
Departments consist of the Army, the Navy (of which the Marine Corps is a component),
and the Air Force. The Defense Agencies provide support services commonly used
throughout the Department.



                                                                            Financial Section
                                             70
U.S. Department of Defense Agency Financial Report for FY 2013


1.C. Appropriations and Funds
The Department receives appropriations and funds as general, working capital (revolving),
trust, special, and deposit funds. The Department uses these appropriations and funds to
execute its missions and subsequently report on resource usage.

General Funds are used for financial transactions funded by congressional appropriations,
including personnel, operation and maintenance, research and development, procurement,
and military construction. These general funds also include supplemental funds enacted by
the American Recovery and Reinvestment Act (Recovery Act) of 2009. Details relating to
Recovery Act appropriated funds are available on-line at DoD Information Related to the
American Recovery and Reinvestment Act of 2009.

Working capital funds (WCF) received funding to establish an initial corpus through an
appropriation or a transfer of resources from existing appropriations or funds. The corpus
finances operations and transactions that flow through the fund. The WCF resources the
goods and services sold to customers on a reimbursable basis and maintains the corpus.
Reimbursable receipts fund future operations and generally are available in their entirety for
use without further congressional action. At various times, Congress provides additional
appropriations to supplement the WCF as an infusion of cash when revenues are inadequate
to cover costs within the corpus.

Trust funds contain receipts and expenditures of funds held in trust by the government for
use in carrying out specific purposes or programs in accordance with the terms of the donor,
trust agreement, or statute. Special fund accounts are used to record government receipts
reserved for a specific purpose. Certain trust and special funds may be designated as funds
from dedicated collections. Funds from dedicated collections are financed by specifically
identified revenues, required by statute to be used for designated activities, benefits or
purposes, and remain available over time. The Department is required to separately account
for and report on the receipt, use and retention of revenues and other financing sources for
funds from dedicated collections.

Deposit funds are used to record amounts held temporarily until paid to the appropriate
government or public entity. They are not Department funds, and as such, are not available
for the Department’s operations. The Department is acting as an agent or custodian for
funds awaiting distribution.

The Department is a party to allocation transfers with other federal agencies as a
transferring (parent) entity or receiving (child) entity. An allocation transfer is an entity’s
legal delegation of authority to obligate budget authority and outlay funds on its behalf.
Generally, all financial activity related to allocation transfers (e.g., budget authority,
obligations, outlays) is reported in the financial statements of the parent entity. Exceptions
to this general rule apply to specific funds for which OMB has directed that all activity be
reported in the financial statements of the child entity. These exceptions include
U.S. Treasury-Managed Trust Funds, Executive Office of the President (EOP), and all other
funds specifically designated by OMB.
The Department receives allocation transfers from the following agencies: Departments of
Agriculture, Interior, Energy, and Transportation; the Appalachian Regional Commission;
and the Federal Highway Administration.

                                                                             Financial Section
                                              71
U.S. Department of Defense Agency Financial Report for FY 2013


Additionally, the Department receives allocation transfers from certain funds meeting the
OMB exception and all related activity is included in the Department’s financial statements.
The exceptions reported by the Department include South Dakota Terrestrial Wildlife Habitat
Restoration, Inland Waterways and Harbor Maintenance. The Department receives allocation
transfers for the Security Assistance programs that meet the OMB exceptions for EOP funds.
These funds are reported separately from the DoD financial statements based on an
agreement with OMB.
As a parent, the Department allocates funds to the Departments of Transportation and
Agriculture, and reports all related activity in these financial statements.

1.D. Basis of Accounting
The Department’s financial management systems are unable to meet all full accrual
accounting requirements. Many of the Department’s financial and nonfinancial feeder
systems and processes were designed and implemented prior to the issuance of USGAAP.
These systems were not designed to collect and record financial information on the full
accrual accounting basis as required by USGAAP. Most of the Department’s financial and
nonfinancial legacy systems were designed to record information on a budgetary basis.

The Department’s financial statements and supporting trial balances are compiled from the
underlying financial data and trial balances of the Military Services and Defense Agencies
and their sub-entities. The underlying data is largely derived from budgetary transactions
(obligations, disbursements, and collections), from nonfinancial feeder systems, and
accruals made for major items such as payroll expenses, accounts payable, and
environmental liabilities. Some of the sub-entity level trial balances may reflect known
abnormal balances resulting largely from business and system processes. At the
consolidated level these abnormal balances may not be evident. Disclosures of abnormal
balances are made in the applicable footnotes, but only to the extent that the abnormal
balances are evident at the consolidated level.

The Department is determining the actions required to bring financial and nonfinancial
feeder systems and processes into compliance with USGAAP. One such action is the current
revision of accounting systems to record transactions based on the U.S. Standard General
Ledger (USSGL). Until all of the Department’s financial and nonfinancial feeder systems and
processes are able to collect and report financial information as required by USGAAP, the
Department’s financial data will be derived from budgetary transactions, data from
nonfinancial feeder systems, and accruals.

1.E. Revenues and Other Financing Sources
The Department receives congressional appropriations as financing sources for general
funds, and on occasion, will also receive congressional appropriations for working capital
funds. These funds either expire annually, some on a multi-year basis, or do not expire.
When authorized by legislation, these appropriations are supplemented by revenues
generated by sales of goods or services. The Department recognizes revenue as a result of
costs incurred for goods and services provided to other federal agencies and the public.
Full-cost pricing is the Department’s standard policy for services provided as required by
OMB Circular A-25, “User Charges.” The Department recognizes revenue when earned


                                                                           Financial Section
                                            72
U.S. Department of Defense Agency Financial Report for FY 2013


within the constraints of its current system capabilities. In some instances, revenue is
recognized when bills are issued.

Depot Maintenance and Ordnance WCF activities recognize revenue according to the
percentage of completion method. Supply Management WCF activities recognize revenue
from the sale of inventory items.
The Department does not include nonmonetary support provided by U.S. allies for common
defense and mutual security in amounts reported in the Statement of Net Cost and Note 21,
Reconciliation of Net Cost of Operations to Budget. The U.S. has cost sharing agreements
with countries having a mutual or reciprocal defense agreement, where U.S. troops are
stationed, or where the U.S. Fleet is in a port.

1.F. Recognition of Expenses
For financial reporting purposes, the Department’s policy requires the recognition of
operating expenses in the period incurred. Current financial and nonfinancial feeder systems
were not designed to collect and record financial information on the full accrual accounting
basis. Estimates are made for major items such as payroll expenses, accounts payable,
environmental liabilities, and unbilled revenue. In the case of OM&S, operating expenses are
generally recognized when the items are purchased. Efforts are underway to transition to
the consumption method for recognizing OM&S expenses. Under the consumption method,
OM&S would be expensed when consumed. Due to system limitations, in some instances
expenditures for capital and other long-term assets may be recognized as operating
expenses. The Department continues to implement process and system improvements to
address these limitations.

1.G. Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminate intra-entity activity and balances from
consolidated financial statements in order to prevent overstatement for business with itself.
However, the Department cannot accurately identify intragovernmental transactions by
customer because the Department’s systems do not track buyer and seller data at the
transaction level. Generally, seller entities within the Department provide summary
seller-side balances for revenue, accounts receivable, and unearned revenue to the
buyer-side internal accounting offices. In most cases, the buyer-side records are adjusted to
agree with the Department’s seller-side balances and are then eliminated. The Department
is implementing replacement systems and a standard financial information structure which
will incorporate the necessary elements that will enable the Department to correctly report,
reconcile, and eliminate intragovernmental balances.
The Treasury Financial Manual Part 2 – Chapter 4700, “Agency Reporting Requirements for
the Financial Report of the United States Government,” provides guidance for reporting and
reconciling intragovernmental balances. While the Department is unable to fully reconcile
intragovernmental transactions with all federal agencies, the Department is able to reconcile
balances pertaining to investments in federal securities, borrowings from the U.S. Treasury
and the Federal Financing Bank, Federal Employees’ Compensation Act transactions with the
Department of Labor, and benefit program transactions with the Office of Personnel
Management.


                                                                            Financial Section
                                             73
U.S. Department of Defense Agency Financial Report for FY 2013


The Department’s proportionate share of public debt and related expenses of the Federal
Government is not included. The Federal Government does not apportion debt and related
costs to federal agencies. The Department’s financial statements do not report any public
debt, interest, or source of public financing, whether from issuance of debt or tax revenues.
Generally, financing for the construction of the Department’s facilities is obtained through
appropriations. To the extent this financing ultimately may have been obtained through the
issuance of public debt, interest costs have not been capitalized since the U.S. Treasury
does not allocate such costs to the Department.

1.H. Transactions with Foreign Governments and International
Organizations
Each year, the Department sells defense articles and services to foreign governments and
international organizations under the provisions of the Arms Export Control Act of 1976.
Under the provisions of the Act, the Department has authority to sell defense articles and
services to foreign countries and international organizations generally at no profit or loss to
the Federal Government. Payment in U.S. dollars is required in advance.

1.I. Funds with the U.S. Treasury
The Department’s monetary resources are maintained in U.S. Treasury accounts. The
disbursing offices of Defense Finance and Accounting Service (DFAS), the Military
Departments, the U.S. Army Corps of Engineers (USACE), and the Department of State’s
financial service centers process the majority of the Department’s cash collections,
disbursements, and adjustments worldwide. Each disbursing station prepares monthly
reports to the U.S. Treasury on checks issued, electronic fund transfers, interagency
transfers, and deposits.

In addition, DFAS sites and the USACE Finance Center submit reports to the U.S. Treasury
by appropriation on interagency transfers, collections received, and disbursements issued.
The U.S. Treasury records these transactions to the applicable FBWT account. On a monthly
basis, the Department's FBWT is adjusted to agree with the U.S. Treasury accounts.

1.J. Cash and Other Monetary Assets
Cash is the total of cash resources under the control of the Department which includes coin,
paper currency, negotiable instruments, and amounts held for deposit in banks and other
financial institutions. Foreign currency consists of the total U.S. dollar equivalent of both
purchased and nonpurchased foreign currencies held in foreign currency fund accounts.
Foreign currency is valued using the U.S. Treasury prevailing rate of exchange.

The majority of cash and all foreign currency is classified as “nonentity” and is restricted.
Amounts reported consist primarily of cash and foreign currency held by disbursing officers
to carry out their paying, collecting, and foreign currency accommodation exchange
missions.

The Department conducts a significant portion of operations overseas. Congress established
a special account to handle the gains and losses from foreign currency transactions for five
general fund appropriations: (1) operations and maintenance; (2) military personnel;
(3) military construction; (4) family housing operation and maintenance; and (5) family

                                                                             Financial Section
                                              74
U.S. Department of Defense Agency Financial Report for FY 2013


housing construction. The gains and losses are calculated as the variance between the
exchange rate current at the date of payment and a budget rate established at the
beginning of each fiscal year. Foreign currency fluctuations related to other appropriations
require adjustments to the original obligation amount at the time of payment. The
Department does not separately identify foreign currency fluctuation transactions.

1.K. Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts receivable,
claims receivable, and refunds receivable. Allowances for uncollectible accounts due from
the public are based upon an analysis of collection experience. The Department does not
recognize an allowance for estimated uncollectible amounts from other federal agencies.
Claims against other federal agencies are to be resolved between the agencies in
accordance with dispute resolution procedures defined in the Intragovernmental Business
Rules published in the Treasury Financial Manual.

1.L. Direct Loans and Loan Guarantees
The Department operates a direct loan and loan guarantee program authorized by the
National Defense Authorization Act for FY 1996 (Public Law (PL) 104-106, Section 2801).
The Act includes a series of authorities that allow the Department to work with the private
sector to renovate military housing. The Department’s goals are to obtain private capital to
leverage government dollars, make efficient use of limited resources, and use a variety of
private sector approaches to build and renovate military housing faster and at a lower cost
to the American taxpayers.
The Act also provides the Department with a variety of authorities to obtain private sector
financing and expertise to improve military housing. The Department uses these authorities
individually or in combination. They include guarantees (both loan and rental),
conveyance/leasing of existing property and facilities, differential lease payments,
investments (both limited partnerships and stock/bond ownership), and direct loans.

National Defense Authorization Act for FY 2005 (PL 108-375, Section 2805) provided
permanent authorities to the Military Housing Privatization Initiative (MHPI).

The Department operates the Armament Retooling and Manufacturing Support Initiative
under Title 10 United States Code 4551-4555. This loan guarantee program was designed to
encourage commercial use of inactive government facilities. The revenue generated from
property rental offsets the cost of maintaining these facilities.

The Department administers the Foreign Military Financing program on behalf of the EOP.
This program is authorized by sections 23 and 24 of the Arms Export Control Act of 1976, as
amended, PL 90-629, as amended, and section 503(a). This program provides loans to help
countries purchase U.S. produced weapons, defense equipment, services, or military
training. The direct loans and loan guarantees related to Foreign Military Sales are not
included in these financial statements, per the Department’s agreement with OMB; this
information is provided separately as other information.

The Federal Credit Reform Act of 1990 governs all amended direct loan obligations and loan
guarantee commitments made after FY 1991.


                                                                           Financial Section
                                            75
U.S. Department of Defense Agency Financial Report for FY 2013


1.M. Inventories and Related Property
The Department values approximately 84 percent of resale inventory using the moving
average cost method. An additional 13 percent (fuel inventory) is reported using the
first-in-first-out method. The Department reports the remaining 3 percent of resale
inventories at an approximation of historical cost using latest acquisition cost adjusted for
holding gains and losses. The latest acquisition cost method is used because legacy
inventory systems were designed for materiel management rather than accounting.
Although these systems provide visibility and accountability over inventory items, they do
not maintain historical cost data necessary to comply with Statement of Federal Financial
Accounting Standards (SFFAS) No. 3, “Accounting for Inventory and Related Property.”
Additionally, these systems cannot produce financial transactions using the USSGL, as
required by the Federal Financial Management Improvement Act of 1996 (PL 104-208). The
Department is continuing to transition the balance of the inventories to the moving average
cost method through the use of new inventory systems. Most transitioned balances,
however, were not baselined to auditable historical cost and remain noncompliant with
SFFAS No. 3.

The Department manages only military or government-specific materiel under normal
conditions. Materiel is a unique term that relates to military force management, and includes
items such as ships, tanks, self-propelled weapons, aircraft, etc., and related spares, repair
parts, and support equipment. Items commonly used in and available from the commercial
sector are not managed in the Department’s materiel management activities. Operational cycles
are irregular, and the military risks associated with stock-out positions have no commercial
parallel. The Department holds materiel based on military need and support for contingencies.
The Department is currently developing a methodology to be used to account for “inventory
held for sale” and “inventory held in reserve for future sale.”

Related property includes OM&S and stockpile materiel. The OM&S, including munitions not
held for sale, are valued at standard purchase price. The Department uses both the
consumption method and the purchase method of accounting for OM&S. Items that are
centrally managed and stored, such as ammunition and engines, are generally recorded
using the consumption method and are reported on the Balance Sheet as OM&S. When
current systems cannot fully support the consumption method, the Department uses the
purchase method. Under this method, materiel and supplies are expensed when purchased.
During FY 2013 and FY 2012, the Department expensed significant amounts using the
purchase method because the systems could not support the consumption method or
management deemed that the item was in the hands of the end user. This is a material
weakness for the Department and long-term system corrections are in process. Once the
proper systems are in place, these items will be accounted for under the consumption
method of accounting.

The Department determined that the recurring high dollar-value of OM&S in need of repair
is material to the financial statements and requires a separate reporting category. Many
high-dollar items, such as aircraft engines, are categorized as OM&S rather than military
equipment.

The Department recognizes excess, obsolete, and unserviceable inventory and OM&S at a net
realizable value of $0 pending development of an effective means of valuing such materiel.

                                                                             Financial Section
                                             76
U.S. Department of Defense Agency Financial Report for FY 2013


Inventory available and purchased for resale includes consumable spare and repair parts,
and repairable items owned and managed by the Department. This inventory is retained to
support military or national contingencies. Inventory held for repair is damaged inventory
that requires repair to make it suitable for sale. Often, it is more economical to repair these
items rather than to procure them. The Department often relies on weapon systems and
machinery no longer in production. As a result, the Department supports a process that
encourages the repair and rebuilding of certain items. This repair cycle is essential to
maintaining a ready, mobile, and armed military force. Work in process balances include:
(1) costs related to the production or servicing of items, including direct material, labor, and
applied overhead; (2) the value of finished products or completed services that are yet to
be placed in service; and (3) munitions in production and depot maintenance work with
associated costs incurred in the delivery of maintenance services.

1.N. Investments in U.S. Treasury Securities
The Department reports investments in U.S. Treasury securities at cost, net of amortized
premiums or discounts. Premiums or discounts are amortized over the term of the
investments using the effective interest rate method or another method that yields similar
results. The Department’s intent is to hold investments to maturity unless they are needed
to finance claims or otherwise sustain operations. Consequently, a provision is not made for
unrealized gains or losses on these securities.

The Department invests in nonmarketable market-based U.S. Treasury securities issued to
federal agencies by the U.S. Treasury’s Bureau of Fiscal Services. These securities are not
traded on any financial exchange but are priced consistently with publically traded
U.S. Treasury securities.

The Department’s net investments are held by various trust and special funds. These funds
include the Military Retirement Fund, Medicare-Eligible Retiree Health Care Fund, Other
Defense Organizations General Fund trust and special funds, donations (gift funds), and the
U.S. Treasury managed trust funds reported by USACE including the South Dakota
Terrestrial Habitat Restoration, Inland Waterways, and Harbor Maintenance Trust Funds.

Other investments represent joint ventures with private developers constructing or improving
military housing on behalf of the Department under the authority of MHPI, authorized by
PL 104-106, Section 2801. These investments do not require market value disclosure. The
Department’s potential losses on these ventures are limited to the amounts invested.

1.O. General Property, Plant and Equipment
The Department uses the estimated historical cost for valuing military equipment. The
Department identified the universe of military equipment by accumulating information
relating to program funding and associated military equipment, equipment useful life,
program acquisitions, and disposals to establish a baseline. The military equipment baseline
is updated using expenditure, acquisition, and disposal information.
The Department’s General Property, Plant, and Equipment (PP&E) capitalization threshold is
$100 thousand except for real property, which is $20 thousand. The Department has not fully
implemented the threshold for real property; therefore, the Department is primarily using the
capitalization threshold of $100 thousand for General PP&E, and most real property.

                                                                              Financial Section
                                              77
U.S. Department of Defense Agency Financial Report for FY 2013


With the exception of USACE Civil Works and WCF, General PP&E assets are capitalized at
historical acquisition cost when an asset has a useful life of two or more years and when the
acquisition cost equals or exceeds the Department’s capitalization threshold. The
Department also requires the capitalization of improvements to existing General PP&E
assets if the improvements equal or exceed the capitalization threshold and extend the
useful life or increase the size, efficiency, or capacity of the asset. The Department
depreciates all General PP&E, other than land, on a straight-line basis.
The WCF capitalizes all PP&E used in the performance of their mission. These assets are
capitalized as General PP&E, whether or not they meet the definition of any other PP&E
category.

The USACE Civil Works General PP&E is capitalized at acquisition cost plus capitalized
improvements when an asset has a useful life of two or more years and the acquisition cost
exceeds $25 thousand. The exception is buildings and structures related to hydropower
projects, which are capitalized regardless of cost.

When it is in the best interest of the government, the Department provides government
property to contractors to complete contract work. The Department either owns or leases
such property, or it is purchased directly by the contractor for the government based on
contract terms. When the value of contractor-procured General PP&E meets or exceeds the
Department’s capitalization threshold, federal accounting standards require that it be
reported on the Department’s Balance Sheet.

To provide appropriated General PP&E information for financial statement reporting, the
Department developed a policy and a reporting process for contractors with government
furnished equipment.

1.P. Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, the
Department’s policy is to record advances or prepayments in accordance with USGAAP. As
such, payments made in advance of the receipt of goods and services are reported as an
asset on the Balance Sheet. The Department’s policy is to expense and/or properly classify
assets when the related goods and services are received. The Department has not fully
implemented this policy primarily due to system limitations.

1.Q. Leases
Lease payments for the rental of equipment and operating facilities are classified as either
capital or operating leases. When a lease is essentially equivalent to an installment
purchase of property (a capital lease), and the value equals or exceeds the current
capitalization threshold, the Department records the applicable asset as though purchased,
with an offsetting liability, and depreciates it. The Department records the asset and liability
at the lesser of the present value of the rental and other lease payments during the lease
term (excluding portions representing executory costs paid to the lessor) or the asset’s fair
market value. The discount rate for the present value calculation is either the lessor’s
implicit interest rate or the government’s incremental borrowing rate at the inception of the
lease. The Department, as the lessee, receives the use and possession of leased property,
for example real estate or equipment, from a lessor in exchange for a payment of funds. An

                                                                              Financial Section
                                              78
U.S. Department of Defense Agency Financial Report for FY 2013


operating lease does not substantially transfer all the benefits and risks of ownership.
Payments for operating leases are expensed over the lease term as they become payable.

Office space and leases entered into by the Department are the largest component of
operating leases and are based on costs gathered from existing leases, General Services
Administration bills, and interservice support agreements. Future year projections use the
Consumer Price Index.

1.R. Other Assets
Other assets include those assets, such as military and civil service employee pay advances,
travel advances, and certain contract financing payments that are not reported elsewhere
on the Department’s Balance Sheet.

The Department conducts business with commercial contractors under two primary types of
contracts: fixed price and cost reimbursable. To alleviate the potential financial burden on
the contractor that long-term contracts can cause, the Department may provide financing
payments. Contract financing payments are defined in the Federal Acquisition Regulation,
Part 32, as authorized disbursements to a contractor prior to acceptance of supplies or
services by the Government. Contract financing payment clauses are incorporated in the
contract terms and conditions and may include advance payments, performance-based
payments, commercial advances and interim payments, progress payments based on cost,
and interim payments under certain cost reimbursement contracts. It is the Department’s
policy to record certain contract financing payments as other assets. The Department has
not fully implemented this policy primarily due to system limitations.
Contract financing payments do not include invoice payments, payments for partial
deliveries, lease and rental payments, or progress payments based on a percentage or
stage of completion. The Defense Federal Acquisition Regulation Supplement authorizes
progress payments based on a percentage or stage of completion only for construction of
real property, shipbuilding, and ship conversion, alteration, or repair. Progress payments
based on percentage or stage of completion are reported as Construction in Progress.

1.S. Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by
SFFAS No. 12, “Recognition of Contingent Liabilities Arising from Litigation,” defines a
contingency as an existing condition, situation, or set of circumstances that involves an
uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more
future events occur or fail to occur. The Department recognizes contingent liabilities when
past events or exchange transactions occur, a future loss is probable, and the loss amount
can be reasonably estimated.
Financial statement reporting is limited to disclosure when conditions for liability recognition
do not exist, but there is at least a reasonable possibility of incurring a loss or additional
losses. The Department’s risk of loss and resultant contingent liabilities arise from pending
or threatened litigation or claims and assessments due to events such as aircraft, ship and
vehicle accidents; medical malpractice; property or environmental damages; and contract
disputes.


                                                                              Financial Section
                                              79
U.S. Department of Defense Agency Financial Report for FY 2013


Other liabilities also arise as a result of anticipated disposal costs for the Department’s
assets. Consistent with SFFAS No. 6, “Accounting for Property, Plant, and Equipment,”
recognition of an anticipated environmental disposal liability begins when the asset is placed
into service. Based on the Department’s policy, which is consistent with SFFAS No. 5,
nonenvironmental disposal liabilities are recognized when management decides to dispose
of an asset. The Department recognizes nonenvironmental disposal liabilities for military
equipment nuclear-powered assets when placed into service. These amounts are not easily
distinguishable and are developed in conjunction with environmental disposal costs.

1.T. Accrued Leave
The Department reports liabilities for military leave and accrued compensatory and annual
leave for civilians. Sick leave for civilians is expensed when taken. The liabilities are based
on current pay rates.

1.U. Net Position
Net position consists of unexpended appropriations and cumulative results of operations.

Unexpended appropriations represent the amounts of budget authority that are unobligated
and have not been rescinded or withdrawn. Unexpended appropriations also represent
amounts obligated for which legal liabilities for payments have not been incurred.

Cumulative results of operations represent the net difference between expenses and losses,
and financing sources (including appropriations, revenue, and gains), since inception. The
cumulative results of operations also include donations and transfers in and out of assets
that were not reimbursed.

1.V. Treaties for Use of Foreign Bases
The Department has the use of land, buildings, and other overseas facilities that are
obtained through various international treaties and agreements negotiated by the
Department of State. The Department purchases capital assets overseas with appropriated
funds; however, the host country retains title to the land and capital improvements. Treaty
terms generally allow the Department continued use of these properties until the treaties
expire. In the event treaties or other agreements are terminated, use of the foreign bases is
prohibited and losses are recorded for the value of any nonretrievable capital assets. The
settlement due to the U.S. or host nation is negotiated and takes into account the value of
capital investments and may be offset by the cost of environmental cleanup.




                                                                             Financial Section
                                              80
U.S. Department of Defense Agency Financial Report for FY 2013


1.W. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between
disbursements and collections matched at the transaction level to specific obligations,
payables, or receivables in the source systems and those reported by the U.S. Treasury.

Supported disbursements and collections may be evidenced by corroborating documentation
that would generally support the summary level adjustments made to accounts payable and
receivable. Unsupported disbursements and collections do not have supporting
documentation for the transaction and most likely would not meet audit scrutiny. However,
both supported and unsupported adjustments may have been made to the Department’s
Accounts Payable and Receivable trial balances prior to validating underlying transactions
required to establish the Accounts Payable/Receivable were previously made. As a result,
misstatements of reported Accounts Payable and Receivable are likely present in the
Department’s financial statements.
Due to noted material weaknesses in current accounting and financial feeder systems, the
Department is generally unable to determine whether undistributed disbursements and
collections should be applied to federal or non-Federal accounts payable/receivable at the
time accounting reports are prepared. Accordingly, the Department’s policy is to allocate
supported undistributed disbursements and collections between federal and non-Federal
categories based on the percentage of distributed federal and non-Federal accounts payable
and accounts receivable. Both supported and unsupported undistributed disbursements and
collections are then applied to reduce accounts payable and receivable accordingly.

1.X. Fiduciary Activities
Fiduciary cash and other assets are not assets of the Department and are not recognized on
the Balance Sheet. Fiduciary activities are reported on the financial statement note
schedules.

1.Y. Military Retirement and Other Federal Employment Benefits
The Department applies SFFAS No. 33, “Pensions, Other Retirement Benefits, and Other
Postemployment Benefits: Reporting the Gains and Losses from Changes in Assumptions
and Selecting Discount Rates and Valuation Dates,” in selecting the discount rate and
valuation date used in estimating actuarial liabilities. In addition, gains and losses from
changes in long-term assumptions used to estimate the actuarial liability are presented
separately on the Statement of Net Cost. Refer to Note 17, Military Retirement and Other
Federal Employment Benefits and Note 18, General Disclosures Related to the Statement of
Net Cost, for additional information.

1.Z. Significant Events
During FY 2013, the Department implemented SFFAS No. 43, “Funds from Dedicated
Collections: Amending SFFAS 27, Identifying and Reporting Earmark Funds.” SFFAS No. 43
provides clarifying language to be used by reporting entities when classifying funds and
provides additional reporting alternatives for financial statement presentation and note
disclosure. Refer to Note 19, Disclosures on Statement of Changes in Net Position and
Note 23, Funds from Dedicated Collections, for additional information.

                                                                          Financial Section
                                            81
U.S. Department of Defense Agency Financial Report for FY 2013


NOTE 2. NONENTITY ASSETS
 Nonentity Assets                                                                Dollars in Millions
 As of September 30                                               2013                 2012
 Intragovernmental Assets
  Fund Balance with Treasury                                 $       1,184.0    $             788.8
  Total Intragovernmental Assets                             $       1,184.0    $             788.8
 Non-Federal Assets
  Cash and Other Monetary Assets                             $       1,393.6    $         1,709.1
  Accounts Receivable                                                6,830.4              7,172.8
  Other Assets                                                         174.1                179.1
  Total Non-Federal Assets                                   $       8,398.1    $         9,061.0
 Total Nonentity Assets                                      $       9,582.1    $         9,849.8
 Total Entity Assets                                         $   2,170,282.7    $     2,075,876.9
 Total Assets                                                $   2,179,864.8    $     2,085,726.7

Nonentity assets are not available for use in the Department’s normal operations. The
Department has stewardship accountability and reporting responsibility for nonentity assets.

Other Disclosures
Intragovernmental FBWT consists primarily of deposit funds and receipt accounts. Deposit
funds represent amounts held temporarily until paid to the appropriate party. Receipt
accounts represent amounts collected on behalf of the U.S. Treasury General Fund.

Non-Federal Cash and Other Monetary Assets primarily consist of cash held by Disbursing
Officers to carry out payment, collection, and foreign currency exchanges.
Non-Federal Accounts Receivable consist of amounts associated with canceled year
appropriations, and interest, fines and penalties due on debt. Generally, the Department
cannot use the collections and must remit them to the U.S. Treasury.

Non-Federal Other Assets consists of an Advanced Payment Pool Agreement (APPAs) for
research and development projects. The Department utilizes APPAs when multiple contracts
with a nonprofit educational institution require advance payments.

NOTE 3. FUND BALANCE WITH TREASURY
 Fund Balance with Treasury                                                      Dollars in Millions
 As of September 30                                               2013           Restated 2012
 Fund Balance
  Appropriated Funds                                         $     468,669.9    $       500,572.1
  Revolving Funds                                                   10,477.7              8,051.7
  Trust Funds                                                        1,666.0              2,132.9
  Special Funds                                                        686.2                533.7
  Other Fund Types                                                   1,161.9                831.2
  Total Fund Balance                                         $     482,661.7    $       512,121.6
 Fund Balance Per Treasury Versus Agency
  Fund Balance per Treasury                                  $     492,296.4    $       521,342.1
  Fund Balance per Agency                                          482,661.7            512,121.6
 Reconciling Amount                                          $       9,634.7    $         9,220.5


                                                                               Financial Section
                                            82
U.S. Department of Defense Agency Financial Report for FY 2013


Other Fund Types primarily consist of deposit fund and receipt accounts.
The Department shows a reconciling net difference of $9.6 billion with U.S. Treasury. This
includes canceling year authority of $9.1 billion, unavailable receipts of $377.7 million,
allocation transfers of $78.4 million and fiduciary activities of $45.1 million.

 Status of Fund Balance with Treasury                                             Dollars in Millions
 As of September 30                                               2013                  2012
 Unobligated Balances
  Available                                                  $      113,939.3    $        119,674.0
  Unavailable                                                       643,857.4             582,311.3
 Obligated Balance not yet Disbursed                                437,665.8             469,112.0
 Non-Budgetary FBWT                                                   1,654.7                 723.3
 Non-FBWT Budgetary Accounts                                      (714,455.5)           (659,699.0)
 Total Fund Balance                                          $      482,661.7    $        512,121.6


The Status of FBWT reflects the budgetary resources to support FBWT and is a reconciliation
between budgetary and proprietary accounts. It primarily consists of unobligated and
obligated balances. The balances reflect the budgetary authority remaining for
disbursements against current or future obligations.
Unobligated Balance is classified as available or unavailable and represents the cumulative
amount of budgetary authority set aside to cover future obligations. The unavailable balance
consists primarily of funds invested in U.S. Treasury securities and are temporarily
precluded from obligation by law. Certain unobligated balances are restricted for future use
and are not apportioned for current use. Unobligated balances for trust fund accounts are
restricted for use by the public laws that establish the funds.

Obligated Balance not yet Disbursed represents funds obligated for goods and services but
not paid.
Non-Budgetary FBWT includes accounts without budgetary authority, such as deposit funds,
unavailable receipt accounts, clearing accounts, and nonentity FBWT.

Non-FBWT Budgetary Accounts reduce the Status of FBWT and consist of investments in
U.S. Treasury securities, unfilled customer orders without advance, contract and borrowing
authority, and receivables.




                                                                                Financial Section
                                            83
U.S. Department of Defense Agency Financial Report for FY 2013


NOTE 4. INVESTMENTS AND RELATED INTEREST
 Investments and Related Interest                                                                              Dollars in Millions
                                                                                  2013
                                                                                Amortized                            Market
                                                                Amortization                       Investments,
                                                     Cost                      (Premium)/                            Value
                                                                  Method                               Net
 As of September 30                                                             Discount                           Disclosure
 Intragovernmental Securities
 Nonmarketable, Market-Based
   Military Retirement Fund                     $ 494,977.7     See Below      $ (15,416.9)        $ 479,560.8     $ 522,376.6
   Medicare-Eligible Retiree Health
                                                    223,228.7   See Below              (8,291.7)       214,937.0     242,383.0
   Care Fund
   US Army Corps of Engineers                       8,100.0     See Below             (127.3)          7,972.7         8,078.3
   Other Funds                                      3,213.4     See Below             (114.9)          3,098.5         3,231.5
 Total Nonmarketable, Market-Based                729,519.8                        (23,950.8)        705,569.0       776,069.4
 Accrued Interest                                   5,928.5                                            5,928.5         5,928.5
 Total Intragovernmental Securities             $ 735,448.3                    $ (23,950.8)        $ 711,497.5     $ 781,997.9
 Other Investments
 Total Other Investments                        $     3,333.9   See Below          $         0.0   $     3,333.9             N/A
 Amortization Method Used: Effective Interest


 Investments and Related Interest                                                                              Dollars in Millions
                                                                             Restated 2012
                                                                                Amortized                            Market
                                                                Amortization               Investments,
                                                     Cost                      (Premium)/                            Value
                                                                  Method                       Net
 As of September 30                                                             Discount                           Disclosure
 Intragovernmental Securities
 Nonmarketable, Market-Based
   Military Retirement Fund                     $ 435,206.4     See Below      $ (11,012.4)        $ 424,194.0     $ 536,544.6
   Medicare-Eligible Retiree Health
                                                    207,793.6   See Below              (6,433.4)       201,360.2     262,831.3
   Care Fund
   US Army Corps of Engineers                       7,264.6     See Below              (57.7)          7,206.9         7,416.2
   Other Funds                                      3,278.3     See Below              (79.8)          3,198.5         3,461.3
 Total Nonmarketable, Market-Based                653,542.9                        (17,583.3)        635,959.6       810,253.4
 Accrued Interest                                   5,706.9                                            5,706.9         5,706.9
 Total Intragovernmental Securities             $ 659,249.8                    $ (17,583.3)        $ 641,666.5     $ 815,960.3
 Other Investments
 Total Other Investments                        $     3,255.0   See Below      $            0.0    $     3,255.0            N/A
 Amortization Method Used: Effective Interest



The Department invests primarily in non-marketable, market-based securities. The value of
these securities fluctuates in tandem with the selling price of the equivalent marketable
security. Securities are purchased with the intent to hold until maturity; thus, balances are
not adjusted to market value.

The U.S. Treasury securities are issued to funds from dedicated collections as evidence of its
receipts and are an asset to the Department and a liability to the U.S. Treasury. The Federal
Government does not set aside assets to pay future benefits or other expenditures
associated with funds from dedicated collections. Cash generated from funds from dedicated
collections is deposited in the U.S. Treasury and used for general government purposes.

                                                                                                            Financial Section
                                                                84
U.S. Department of Defense Agency Financial Report for FY 2013


Since the Department and the U.S. Treasury are both part of the Federal Government,
these assets and liabilities offset each other from the standpoint of the Federal Government
as a whole. For this reason, they do not represent an asset or a liability in the
U.S. Government-wide financial statements.

The U.S. Treasury securities provide the Department with authority to access funds to make
future benefit payments or other expenditures. When the Department requires redemption
of securities to make expenditures, the Federal Government will meet the requirement by
using accumulated cash balances, raising taxes or other receipts, borrowing from the public
or repaying less debt, or curtailing other expenditures. The Federal Government uses the
same method to finance all other expenditures.

Other Funds primarily consists of $1.9 billion in investments of the DoD Education Benefits
Trust Fund, $884.1 million in investments of the Host Nation Support for U.S. Relocation
Activities Trust Fund, and $272.6 million in investments of the Voluntary Separation
Incentive Trust Fund.

Other Investments consists of Military Housing Privatization Initiative limited partnerships.
The Department invests in nongovernmental entities involved in the acquisition or
construction of family housing and supporting facilities at Army, Air Force, Navy, and Marine
Corps installations. The Department provides cash, land, or facilities as equity, but has no
management role. A limited partnership arrangement operates purely as a private business
and does not require Market Value Disclosure.

NOTE 5. ACCOUNTS RECEIVABLE
 Accounts Receivable                                                                   Dollars in Millions
                                                               2013
                                                           Allowance for
                                                                                     Accounts
                                  Gross Amount Due           Estimated
                                                                                   Receivable, Net
 As of September 30                                        Uncollectibles
  Intragovernmental Receivables   $          1,284.2                    N/A    $                1,284.2
  Non-Federal Receivables
                                            11,262.8                 (806.6)                   10,456.2
  (From the Public)
 Total Accounts Receivable        $         12,547.0   $             (806.6)   $               11,740.4


 Accounts Receivable                                                                   Dollars in Millions
                                                               2012
                                                           Allowance for
                                                                                     Accounts
                                  Gross Amount Due           Estimated
                                                                                   Receivable, Net
 As of September 30                                        Uncollectibles
  Intragovernmental Receivables   $          1,439.6                    N/A    $                1,439.6
  Non-Federal Receivables
                                            12,420.5                 (898.1)                   11,522.4
  (From the Public)
 Total Accounts Receivable        $         13,860.1   $             (898.1)   $               12,962.0


Accounts receivable represent the Department’s claim for payment from other entities. The
Department only recognizes an allowance for uncollectible amounts from the public. Claims with
other Federal agencies are resolved in accordance with the Intragovernmental Business Rules.


                                                                                    Financial Section
                                              85
U.S. Department of Defense Agency Financial Report for FY 2013


NOTE 6. OTHER ASSETS
 Other Assets                                                                    Dollars in Millions
 As of September 30                                               2013                 2012
 Intragovernmental Other Assets
 Advances and Prepayments                                     $      1,620.2    $          1,447.3
 Other Assets                                                          137.4                 135.9
 Total Intragovernmental Other Assets                         $      1,757.6    $          1,583.2
 Non-Federal Other Assets
 Outstanding Contract Financing Payments                      $     68,594.7    $         65,342.9
 Advances and Prepayments                                            3,681.4               1,063.6
 Other Assets (With the Public)                               $        190.8    $            194.7
 Total Non-Federal Other Assets                               $     72,466.9    $         66,601.2
 Total Other Assets                                           $     74,224.5    $         68,184.4

Other Disclosures
Intragovernmental Other Assets are largely related to the Department’s                   right     to
approximately 6.4 million barrels of crude oil held by the Department of Energy.

The Other Assets (With the Public) balance is primarily comprised of APPAs for research and
development projects. AAPAs are utilized when multiple contracts with a nonprofit
educational institution require advance payments.

Contract terms and conditions for certain types of contract financing payments convey
rights to the Department, protecting the contract work from state or local taxation, liens or
attachment by contractors’ creditors, transfer of property, or disposition in bankruptcy.
However, these rights should not be misconstrued to mean that ownership of contractors’
work has transferred to the Department. The Department does not have the right to take
the work, except as provided for in contract clauses related to termination or acceptance.
The Department is not obligated to make payment to contractors until delivery and
acceptance.

Outstanding Contract Financing Payments includes $64.9 billion in contract financing
payments and an additional $3.7 billion in estimated future payments to contractors upon
delivery and government acceptance of satisfactory product. Refer to Note 15, Other
Liabilities, for further information.

NOTE 7. CASH AND OTHER MONETARY ASSETS
 Cash and Other Monetary Assets                                                  Dollars in Millions
 As of September 30                                               2013                 2012
 Cash                                                         $        430.7    $            443.9
 Foreign Currency                                                    1,099.0               1,378.1
 Total Cash, Foreign Currency, and Other Monetary Assets      $      1,529.7    $          1,822.0

Cash (except for $136.1 million in undeposited collections, imprest funds and other cash)
and Foreign Currency represent nonentity assets and are restricted and unavailable to fund
the Department’s mission.



                                                                               Financial Section
                                                  86
U.S. Department of Defense Agency Financial Report for FY 2013


NOTE 8. DIRECT LOAN AND LOAN GUARANTEES
Direct Loan and Loan Guarantee Programs
The Department operates the following direct loan and/or loan guarantee programs:

•   Military Housing Privatization Initiative (MHPI)
•   Armament Retooling and Manufacturing Support Initiative (ARMS)

The Federal Credit Reform Act of 1990 governs all new and amended direct loan obligations
and loan guarantee commitments made after FY 1991.

Direct loans are reported at the net present value of the following projected cash flows:
•   Loan disbursements

•   Repayments of principal

•   Payments of interest and other payments over the life of the loan after adjusting for
    estimated defaults, prepayments, fees, penalties, and other recoveries

Loan guarantee liabilities are reported at the net present value. The cost of the loan
guarantee is the net present value of the following estimated projected cash flows:

•   Payments by the Department to cover defaults and delinquencies, interest subsidies, or
    other payments; offset by payments to the Department including origination and other
    fees, penalties, and recoveries.

Military Housing Privatization Initiative
The MHPI includes both direct loan and loan guarantee programs. The programs are
authorized by the National Defense Authorization Act for FY 1996 (PL 104-106,
Section 2801) and include a series of authorities allowing the Department to work with the
private sector to renovate and build military family housing. The MHPI accelerates the
construction of new housing built to market standards and obtains private sector capital to
leverage government funds. The Department provides protection to private sector partners
against specific risks, such as base closure or member deployment.

Armament Retooling and Manufacturing Support Initiative
The ARMS Initiative, Title 10 United States Code 4551-4555, is a loan guarantee program
designed to encourage commercial use of the Army’s inactive ammunition plants through
incentives for businesses willing to locate to a government ammunition production facility.
The production capacity of these facilities is greater than current military requirements;
however, this capacity may be needed by the military in the future. Revenue offsets
overhead costs for operation, maintenance, and environmental cleanup at the facilities.
In an effort to preclude additional loan liability, the Army instituted an ARMS loan guarantee
moratorium in FY 2004 and does not anticipate new loans.




                                                                             Financial Section
                                               87
U.S. Department of Defense Agency Financial Report for FY 2013


 Summary of Direct Loans and Loan Guarantees                                           Dollars in Millions
                                                                      2013                   2012
 Loans Receivable
 Direct Loans:
 Military Housing Privatization Initiative                              1,267.7                     957.5
   Total Direct Loans                                         $         1,267.7       $             957.5
 Total Loans Receivable                                       $         1,267.7       $             957.5
 Loan Guarantee Liability
 Military Housing Privatization Initiative                                    45.8                   11.7
 Armament Retooling & Manufacturing Support Initiative                         0.0                    1.0
 Total Loan Guarantee Liability                               $               45.8    $              12.7


 Direct Loans Obligated                                                                Dollars in Millions
                                                                      2013                   2012
 Direct Loans Obligated After FY 1991
 (Present Value Method):
 Military Housing Privatization Initiative
 Loans Receivable Gross                                       $         1,355.8       $          1,119.6
 Allowance for Subsidy Cost (Present Value)                               (88.1)                 (162.1)
   Value of Assets Related to Direct Loans, Net                         1,267.7                    957.5
 Total Direct Loans Receivable                                $         1,267.7       $            957.5


Direct Loans Receivable does not represent proceeds the Department would expect to
receive from selling the loans.

Interest receivable is calculated using the interest earned method.

 Total Amount of Direct Loans Disbursed                                                Dollars in Millions
                                                                      2013                   2012
 Direct Loan Programs
   Military Housing Privatization Initiative                  $              241.3    $             261.1
   Total                                                      $              241.3    $             261.1




                                                                                     Financial Section
                                                         88
U.S. Department of Defense Agency Financial Report for FY 2013


 Subsidy Expense for Direct Loan by Program                                                                    Dollars in Millions
                                   Interest
             2013                                                  Defaults         Fees             Other              Total
                                  Differential
 New Direct Loans Disbursed
 Military Housing Privatization Initiative   $           5.9   $        34.9    $          0.0   $           0.0   $        40.8
  Total                                      $           5.9   $        34.9    $          0.0   $           0.0   $        40.8
                                              Interest
                  2012                                             Defaults         Fees             Other              Total
                                             Differential
 New Direct Loans Disbursed
 Military Housing Privatization Initiative   $         21.3    $        22.2    $          0.0   $           0.0   $        43.5
  Total                                      $         21.3    $        22.2    $          0.0   $           0.0   $        43.5
                                                 Modifica-     Interest Rate     Technical          Total
                  2013                                                                                                  Total
                                                  tions        Reestimates      Reestimates      Reestimates
 Direct Loan Modifications and Reestimates
 Military Housing Privatization Initiative $             0.0   $       (10.7)   $     (84.0)     $     (94.7)      $      (94.7)
   Total                                   $             0.0   $       (10.7)   $     (84.0)     $     (94.7)      $      (94.7)
                                                 Modifica-     Interest Rate     Technical          Total
                  2012                                                                                                  Total
                                                  tions        Reestimates      Reestimates      Reestimates
 Direct Loan Modifications and Reestimates
 Military Housing Privatization Initiative $             0.0   $        (9.6)   $      (4.1)     $     (13.7)      $      (13.7)
   Total                                   $             0.0   $        (9.6)   $      (4.1)     $     (13.7)      $      (13.7)
                                                  2013              2012
 Total Direct Loan Subsidy Expense:
 Military Housing Privatization Initiative $         (53.9)    $        29.8
  Total                                    $         (53.9)    $        29.8


 Subsidy Expense for Direct Loan by Program
                                   Interest
                                                                   Defaults         Fees             Other              Total
 As of September 30, 2013         Differential
 Budget Subsidy Rates for Direct Loans
 Military Housing Privatization Initiative 3.89%                   12.37%           0.00%            0.00%             16.26%


Subsidy rates pertain to loan agreements contracted during the current fiscal year. These
rates cannot be applied to direct loans disbursed during the current reporting year to yield
the subsidy expense. Subsidy expense for new loans disbursed in the current year results
from disbursements of loans from current and prior year loan agreements. Subsidy expense
reported in the current year also includes reestimates.




                                                                                                         Financial Section
                                                               89
U.S. Department of Defense Agency Financial Report for FY 2013


Schedule for Reconciling Subsidy Cost Allowance Balances
for Post-FY 1991 Direct Loans                                                             Dollars in Millions
                                                                        2013                    2012
Beginning Balance, Changes, and Ending Balance:
Beginning Balance of the Subsidy Cost Allowance                     $          162.1 $                 139.4
Add: Subsidy Expense for Direct Loans Disbursed during the Reporting Years by Component
Interest Rate Differential Costs                                                 5.9                    21.3
Default Costs (Net of Recoveries)                                               34.9                    22.2
Total of the above Subsidy Expense Components                     $             40.8     $              43.5
Adjustments
Subsidy Allowance Amortization                                                 (10.4)                   (7.1)
Other                                                                           (9.7)                     0.0
Total of the above Adjustment Components                          $            (20.1)    $              (7.1)
Ending Balance of the Subsidy Cost Allowance before Reestimates   $            182.8     $             175.8
Add or Subtract Subsidy Reestimates by Component
 Interest Rate Reestimates                                        $            (10.7)    $              (9.6)
 Technical/Default Reestimate                                                  (84.0)                   (4.1)
Total of the above Reestimate Components                                       (94.7)                  (13.7)
Ending Balance of the Subsidy Cost Allowance                      $              88.1    $             162.1


Defaulted Guaranteed Loans                                                                Dollars in Millions
As of September 30                                                      2013                    2012
Defaulted Guaranteed Loans from Post-FY 1991 Guarantees (Present Value Method):
Armament Retooling & Manufacturing Support Initiative
 Defaulted Guaranteed Loans Receivable, Gross                     $               0.7    $                0.7
 Allowance for Subsidy Cost (Present Value)                                     (0.7)                   (0.7)
 Value of Assets Related to Defaulted Guaranteed Loans
                                                                  $               0.0    $                0.0
 Receivable, Net
Total Value of Assets Related to Defaulted                        $               0.0    $                0.0




                                                                                        Financial Section
                                                90
U.S. Department of Defense Agency Financial Report for FY 2013


Guaranteed Loans Outstanding                                                       Dollars in Millions
                                                               Outstanding             Amount of
                                                                Principal of          Outstanding
                                                             Guaranteed Loans,          Principal
As of September 30                                              Face Value            Guaranteed
                                     2013
Guaranteed Loans Outstanding
Military Housing Privatization Initiative                    $           670.8    $             670.8
Total                                                        $           670.8    $             670.8

                                     2012
Guaranteed Loans Outstanding
Military Housing Privatization Initiative                    $           448.4    $             448.4
Total                                                        $           448.4    $             448.4

                                     2013
New Guaranteed Loans Disbursed
Military Housing Privatization Initiative                    $           222.5    $             222.5
Total                                                        $           222.5    $             222.5

                                     2012
New Guaranteed Loans Disbursed
Military Housing Privatization Initiative                    $             0.0    $                 0.0
Total                                                        $             0.0    $                 0.0



Liabilities for Loan Guarantees                                                    Dollars in Millions
As of September 30                                                2013                   2012
Liabilities for Loan Guarantee from Post 1991
(Present Value)
Military Housing Privatization Initiative                    $            45.8    $              11.7
Armament Retooling & Manufacturing Support Initiative                        0                    1.0
  Total Loan Guarantee Liability (Post FY 1991)              $            45.8    $              12.7
Total Loan Guarantee Liability                               $            45.8    $              12.7




                                                                                 Financial Section
                                                        91
U.S. Department of Defense Agency Financial Report for FY 2013


Subsidy Expense for Direct Loan by Program
As of September 30                                                                                             Dollars in Millions
                                             Interest
                 2013                                             Defaults          Fees             Other             Total
                                            Differential
New Loan Guarantees Disbursed
Military Housing Privatization Initiative   $           0.0   $        33.7     $          0.0   $           0.0   $        33.7
Armament Retooling &
                                                        0.0               0.0              0.0               0.0               0.0
Manufacturing Support Initiative
  Total                                     $           0.0   $        33.7     $          0.0   $           0.0   $        33.7
                                             Interest
                 2012                                             Defaults          Fees             Other             Total
                                            Differential
New Loan Guarantees Disbursed
Military Housing Privatization Initiative   $           0.0   $           0.0   $          0.0   $           0.0   $           0.0
Armament Retooling &
                                                        0.0               0.0              0.0               0.0               0.0
Manufacturing Support Initiative
  Total                                     $           0.0   $           0.0   $          0.0   $           0.0   $           0.0
                                                Modifica-     Interest Rate      Technical          Total
                 2013                                                                                                  Total
                                                 tions        Reestimates       Reestimates      Reestimates
Modifications and Reestimates
Military Housing Privatization Initiative   $           0.0   $        (0.9)    $      (0.3)     $       (1.2)     $        (1.2)
Armament Retooling &
                                                        0.0               0.0          (1.1)             (1.1)              (1.1)
Manufacturing Support Initiative
  Total                                     $           0.0   $        (0.9)    $      (1.4)     $       (2.3)     $        (2.3)
                                                Modifica-     Interest Rate      Technical          Total
                 2012                                                                                                  Total
                                                 tions        Reestimates       Reestimates      Reestimates
Modifications and Reestimates
Military Housing Privatization Initiative   $           0.0   $        (0.9)    $      (1.7)     $       (2.6)     $        (2.6)
Armament Retooling &
                                                        0.0               0.8          (0.0)                 0.8               0.8
Manufacturing Support Initiative
  Total                                     $           0.0   $        (0.1)    $      (1.7)     $       (1.8)     $        (1.8)
                                                 2013              2012
Total Loan Guarantee
Military Housing Privatization Initiative   $         32.5    $        (2.6)
Armament Retooling &
                                                      (1.1)               0.8
Manufacturing Support Initiative
  Total                                     $         31.4    $        (1.8)


The Department incurred two new loan guarantees after determining the projects were
more advantageous to administer these projects as loan guarantees rather than direct
loans.

Subsidy Expense for Direct Loan by Program
                                                                                 Fees and
                                              Interest
                                                                  Defaults         other             Other             Total
                                            Supplements
As of September 30, 2013                                                        Collections
Budget Subsidy Rates for Loan Guarantees
Military Housing Privatization Initiative 0.0%                     6.56%            0.0%             0.0%              6.56%
Armament Retooling &
                                          0.0%                     0.0%             0.0%             0.0%              0.0%
Manufacturing Support Initiative




                                                                                                         Financial Section
                                                              92
U.S. Department of Defense Agency Financial Report for FY 2013


Subsidy rates pertain to loan agreements contracted during the current fiscal year. These
rates cannot be applied to loan guarantees agreed to during the current reporting year to
yield the subsidy expense. Subsidy expense reported in the current year also includes
reestimates.

 Schedule for Reconciling Loan Guarantee Liability Balances
 for Post-FY 1991 Loan Guarantees                                                         Dollars in Millions
 As of September 30                                                      2013                   2012
 Beginning Balance, Changes, and Ending Balance
 Beginning Balance of the Loan Guarantee Liability                 $           12.7 $                   13.9
 Add: Subsidy Expense for Guaranteed Loans Disbursed during the Reporting Years by Component
 Default Costs (Net of Recoveries)                                              33.7                      0.0
 Total of the above Subsidy Expense Components                       $          33.7     $                0.0
 Adjustments
 Interest Accumulation on the Liability Balance                                  1.7                     0.6
 Total of the above Adjustments                                      $           1.7     $               0.6
 Ending Balance of the Loan Guarantee Liability before Reestimates   $          48.1     $              14.5
 Add or Subtract Subsidy Reestimates by Component
 Interest Rate Reestimate                                            $          (0.9)    $              (0.1)
 Technical/Default Reestimate                                                   (1.4)                   (1.7)
 Total of the above Reestimate Components                            $          (2.3)                   (1.8)
 Ending Balance of the Loan Guarantee Liability                      $          45.8     $              12.7


Administrative Expenses are limited to separately identified expenses for administering
pre-FY 1992 and post-FY 1991 Direct Loans and Loan Guarantee Programs. The Department
does not maintain a separate program to capture expenses related to direct loans and loan
guarantees for MHPI. Administrative expenses for the ARMS Initiative represent a fee paid
to the U.S. Department of Agriculture, Rural Business Cooperative Service.




                                                                                        Financial Section
                                                   93
U.S. Department of Defense Agency Financial Report for FY 2013


NOTE 9. INVENTORY AND RELATED PROPERTY
Inventory and Related Property                                                                             Dollars in Millions
As of September 30                                                                         2013                  2012
Inventory, Net                                                                        $       85,368.0    $         90,156.8
Operating Materiel & Supplies, Net                                                           168,110.0             152,591.5
Stockpile Materiel, Net                                                                          519.5                 551.4
Total Inventory and Related Property                                                  $      253,997.5    $        243,299.7


Inventory, Net                                                                                                Dollars in Millions
                                                                                    2013
                                                                                                                 Valuation
                                                              Inventory,        Revaluation                       Method
                                                                                            Inventory, Net
As of September 30                                           Gross Value         Allowance
Inventory Categories
                                                                                                                FIFO,LAC,
  Available and Purchased for Resale                       $        57,101.0 $      (3,402.3) $    53,698.7
                                                                                                                   MAC
  Held for Repair                                                   34,312.3        (4,105.8)      30,206.5     LAC,MAC
  Excess, Obsolete, and Unserviceable                                6,967.1        (6,967.1)           0.0        NRV
  Raw Materiel                                                       1,412.4              0.0       1,412.4    MAC,SP,LAC
  Work in Process                                                       50.4              0.0          50.4         AC
Total Inventory, Net                                       $        99,843.2 $     (14,475.2) $    85,368.0
Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                NRV = Net Realizable Value
SP = Standard Price                                                                          MAC = Moving Average Cost
AC = Actual Cost                                                                             FIFO = First In, First Out



Inventory, Net                                                                                                Dollars in Millions
                                                                                    2012
                                                                                                                 Valuation
                                                              Inventory,        Revaluation                       Method
                                                                                            Inventory, Net
As of September 30                                           Gross Value         Allowance
Inventory Categories
                                                                                                                FIFO,LAC,
  Available and Purchased for Resale                       $        61,608.0 $      (2,602.5) $    59,005.5
                                                                                                                   MAC
  Held for Repair                                                 33,864.2          (4,143.9)      29,720.3     LAC,MAC
  Excess, Obsolete, and Unserviceable                              6,833.8          (6,833.8)           0.0        NRV
  Raw Materiel                                                     1,352.6                0.0       1,352.6    MAC,SP,LAC
  Work in Process                                                     78.4                0.0          78.4         AC
Total Inventory, Net                                       $     103,737.0 $       (13,580.2) $    90,156.8
Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                NRV = Net Realizable Value
SP = Standard Price                                                                          MAC = Moving Average Cost
AC = Actual Cost                                                                             FIFO = First In, First Out




                                                                                                         Financial Section
                                                               94
U.S. Department of Defense Agency Financial Report for FY 2013


Restrictions
The following are restrictions on the use, sale, or disposition of inventory:
•   War reserve materiel valued at $1.5 billion;

•   Commissary items valued at $375.9 million held for purchase by authorized patrons;
    and

•   Dispositions pending litigation or negotiation valued at $68.9 million.
There are no known restrictions on inventory disposition related to environmental or other
liabilities.

General Composition of Inventory
Inventory includes spare and repair parts, clothing and textiles, and fuels held for sale.
Inventory is tangible personal property:

•   Held for sale, or held for repair and eventual sale;

•   In the process of production for sale; or

•   To be consumed in the production of goods for sale or in the provision of service for a
    fee.

The Department assigns inventory items to a category based on asset type and condition.

Operating Materiel and Supplies, Net                                                                      Dollars in Millions
                                                                            2013
                                                                                                             Valuation
                                                            OM&S, Gross Revaluation                           Method
                                                                                              OM&S, Net
As of September 30                                            Value      Allowance
Inventory Categories
  Held for Use                                             $     142,845.3 $        (8.7) $     142,836.6 SP, LAC, MAC
  Held for Repair                                                 25,285.3         (11.9)        25,273.4 SP, LAC, MAC
  Excess, Obsolete, and Unserviceable                              2,134.8      (2,134.8)             0.0      NRV
Total OM&S                                                 $     170,265.4 $    (2,155.4) $     168,110.0
Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses            NRV = Net Realizable Value
SP = Standard Price                                                                      MAC = Moving Average Cost



Operating Materiel and Supplies, Net                                                                      Dollars in Millions
                                                                            2012
                                                                                                             Valuation
                                                            OM&S, Gross Revaluation                           Method
                                                                                              OM&S, Net
As of September 30                                            Value      Allowance
Inventory Categories
  Held for Use                                             $     134,535.9 $       (28.0) $     134,507.9 SP, LAC, MAC
  Held for Repair                                                 18,882.2        (798.6)        18,083.6 SP, LAC, MAC
  Excess, Obsolete, and Unserviceable                              1,925.0      (1,925.0)             0.0      NRV
Total OM&S                                                 $     155,343.1 $    (2,751.6) $     152,591.5
Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses            NRV = Net Realizable Value
SP = Standard Price                                                                      MAC = Moving Average Cost




                                                                                                    Financial Section
                                                               95
U.S. Department of Defense Agency Financial Report for FY 2013


Restrictions
Some munitions included in OM&S are restricted due to condition. Restricted munitions are
considered obsolete or unserviceable when they cannot meet performance requirements.
However, obsolete and unserviceable OM&S may be used in emergency combat situations
when no other suitable munitions are immediately available.

General Composition of OM&S
OM&S include spare and repair parts, ammunition, tactical missiles, aircraft configuration
pods, and centrally managed aircraft engines held for consumption. The Department assigns
OM&S items to a category based on asset type and condition.

Stockpile Materiel, Net                                                                     Dollars in Millions
                                                                2013
                                              Stockpile,   Allowance for     Stockpile,        Valuation
                                               Materiel         Gains        Materiel,          Method
As of September 30                             Amount         (Losses)          Net
Stockpile Materiel Categories
  Held for Sale                           $         424.5 $          0.0 $          424.5       AC, LCM
  Held for Reserve for Future Sale                   95.0            0.0             95.0       AC, LCM
Total Stockpile Materiel                  $         519.5 $          0.0 $          519.5
Legend for Valuation Methods:
AC = Actual Cost                                                           LCM = Lower of Cost or Market


 Stockpile Materiel, Net                                                                     Dollars in Millions
                                                                2012
                                              Stockpile,   Allowance for     Stockpile,         Valuation
                                               Materiel         Gains        Materiel,           Method
 As of September 30                            Amount         (Losses)          Net
 Stockpile Materiel Categories
   Held for Sale                          $          522.1 $         0.0 $           522.1       AC, LCM
   Held for Reserve for Future Sale                   29.3           0.0              29.3       AC, LCM
 Total Stockpile Materiel                 $          551.4 $         0.0 $           551.4
 Legend for Valuation Methods:
 AC = Actual Cost                                                          LCM = Lower of Cost or Market


Restrictions
Materiel held by the National Defense Stockpile (NDS) is restricted unless released by
congressional action and made available for sale on the open market. Stockpile materiel
may not be disposed except for: (1) necessary upgrading, refining, or processing;
(2) necessary rotation to prevent deterioration; (3) determination as excess with potential
financial loss if retained; or (4) authorization by law.

Before selling any materiel, Congress must enact specific enabling legislation (e.g., the
National Defense Authorization Act). When authorized to offer materiel for sale, NDS
reclassifies from Materiel Held in Reserve to Materiel Held for Sale. The estimated market
price of stockpile materiel held for sale as of 4th Quarter, FY 2013, is $1.3 billion.




                                                                                     Financial Section
                                              96
U.S. Department of Defense Agency Financial Report for FY 2013


General Composition of Stockpile Materiel
Due to statutory requirements, the Department holds strategic and critical stockpile
materiel for use in national defense, conservation, or national emergencies.

NOTE 10. GENERAL PP&E, NET
 General PP&E, Net                                                                                         Dollars in Millions
                                                                                   2013
                                             Depreciation/                                     (Accumulated
                                                                                 Acquisition                       Net Book
                                             Amortization     Service Life                     Depreciation/
                                                                                   Value                            Value
 As of September 30                            Method                                          Amortization)
 Major Asset Classes
 Land                                            N/A              N/A        $    10,781.2              N/A    $      10,781.2
 Buildings, Structures, and Facilities           S/L           20 or 40          269,766.1       (127,980.0)         141,786.1
 Leasehold Improvements                          S/L          Lease term             403.8           (167.9)             235.9
 Software                                        S/L          2 – 5 or 10         11,024.7         (8,038.9)           2,985.8
 General Equipment                               S/L            5 or 10          100,529.7        (63,823.5)          36,706.2
 Military Equipment                              S/L           Various           883,098.7       (483,845.8)         399,252.9
                             1
 Assets Under Capital Lease                      S/L          Lease term             632.8           (438.5)             194.3
 Construction-in-Progress                        N/A              N/A             46,635.7              N/A           46,635.7
 Other                                                                             1,035.8             (2.0)           1,033.8
 Total General PP&E                                                          $ 1,323,908.5     $ (684,296.6)   $     639,611.9
 1
  Note 15 for additional information on Capital Leases
 Legend for Valuation Methods: S/L = Straight Line N/A = Not Applicable



 General PP&E, Net                                                                                         Dollars in Millions
                                                                                   2012
                                             Depreciation/                                     (Accumulated
                                                                                 Acquisition                       Net Book
                                             Amortization     Service Life                     Depreciation/
                                                                                   Value                            Value
 As of September 30                            Method                                          Amortization)
 Major Asset Classes
 Land                                            N/A              N/A        $    10,706.2              N/A    $      10,706.2
 Buildings, Structures, and Facilities           S/L           20 or 40          248,871.1       (120,845.8)         128,025.3
 Leasehold Improvements                          S/L          Lease term             880.5           (302.2)             578.3
 Software                                        S/L          2 – 5 or 10         11,324.7         (7,640.2)           3,684.5
 General Equipment                               S/L            5 or 10          105,745.4        (69,931.6)          35,813.8
 Military Equipment                              S/L           Various           878,687.7       (500,413.0)         378,274.7
                             1
 Assets Under Capital Lease                      S/L          Lease term             901.4           (520.4)             381.0
 Construction-in-Progress                        N/A              N/A             42,825.7              N/A           42,825.7
 Other                                                                             1,171.4             (2.9)           1,168.5
 Total General PP&E                                                          $ 1,301,114.1     $ (699,656.1)   $     601,458.0
 1
  Note 15 for additional information on Capital Leases
 Legend for Valuation Methods: S/L = Straight Line N/A = Not Applicable


Other Disclosures
The Department has use of overseas land, buildings, and other facilities obtained through
international treaties and agreements negotiated by the Department of State. Treaty
covenants restrict the Department’s use and disposal of real property (land and buildings)
located outside the United States.


                                                                                                       Financial Section
                                                             97
U.S. Department of Defense Agency Financial Report for FY 2013


The Department does not have the acquisition value for all General PP&E and uses several
cost methodologies to provide General PP&E values for financial statement reporting
purposes. Extensive efforts are in progress to achieve audit readiness. The ongoing
discovery and validation phases identify adjustments to values resulting in current year
gains/losses.
Other General Property, Plant, and Equipment includes assets awaiting disposition.

Heritage Assets and Stewardship Land
The Department’s policy is to preserve its heritage assets including items of historical,
cultural, educational, or artistic importance.

The mission of the Department is to provide the military forces necessary to deter war and
protect the security of the United States. The Department, with minor exceptions, uses
most of the buildings and stewardship land in its daily activities and includes the buildings
on the Balance Sheet as multi-use heritage assets (capitalized and depreciated).
Differences in the heritage assets and stewardship land quantities from the FY 2012 ending
to the FY 2013 beginning unit counts resulted from efforts to improve quality of reported
data.

Heritage assets within the Department consist of buildings and structures, archeological
sites, and museum collections. The Department defines these as follows:

•     Buildings and Structures. Buildings and structures listed, or eligible for listing, on the
      National Register of Historic Places, including Multi-Use Heritage Assets.

•     Archeological Sites. Sites identified, evaluated, and determined to be eligible for or are
      listed on the National Register of Historic Places in accordance with Section 110 of the
      National Historic Preservation Act.
•     Museum Collection Items. Items unique for one or more of the following reasons:
      historical or natural significance; cultural, educational, or artistic importance; or
      significant technical or architectural characteristics.

The Department is unable to identify all quantities of heritage assets and stewardship land
added through donation or devise in FY 2013 due to limitations of the Department’s financial
and nonfinancial management processes and systems.

                                        Measure      As of                                 As of
    Categories                                                   Additions    Deletions
                                        Quantity    9/30/12                               9/30/13
    Buildings and Structures             Each           56,175          61          240      55,996
    Archeological Sites                  Each           29,913         162            8      30,067
    Museum Collection Items
                                         Each       1,233,347        11,815         316   1,244,846
    (Objects, not including fine art)
    Museum Collection Items (Objects,
                                         Each           53,430        3,397           0      56,827
    fine art)

Stewardship land includes both land and land rights owned by the Department, but not
acquired for, or in connection with, items of General Property, Plant, and Equipment. All
land provided to the Department from the public domain or at no cost, regardless of its use,
is classified as Stewardship Land.


                                                                                   Financial Section
                                                   98
U.S. Department of Defense Agency Financial Report for FY 2013


Stewardship land is categorized and reported in acres based on the predominant use of the
land. The three categories of Stewardship land held in public trust are: State Owned Land,
Withdrawn Public Land, and Public Land.

The Department’s stewardship land consists mainly of mission essential land.

                                                  As of
 Facility             Predominant Land Use       9/30/12                                       As of
                                                              Additions    Deletions
  Code                     Categories            (Acres in                                    9/30/13
                                                Thousands)
 9110        Government Owned Land                    6,552            0               0           6,552
 9111        State Owned Land                             5            0               0               5
 9120        Withdrawn Public Land                   14,714          692              10          15,396
 9130        Licensed and Permitted Land                917           27               0             944
 9140        Public Land                                 11            0               0              11
 9210        Land Easement                              378            0               0             378
 9220        In-leased Land                             124            0               0             124
 9230        Foreign Land                               297            0               0             297
             Grand Total                                                                          23,707
             Total – All Other Lands                                                               8,295
             Total – Stewardship Lands                                                            15,412


Differences in the heritage assets and stewardship land quantities from the FY 2012 ending
to the FY 2013 beginning unit counts resulted from efforts to improve quality of reported
data.

 Assets Under Capital Lease                                                            Dollars in Millions

 As of September 30                                                    2013                  2012
 Entity as Lessee, Assets Under Capital Lease
   Land and Buildings                                            $           260.0    $             273.0
   Equipment                                                                 372.9                  628.4
   Accumulated Amortization                                                (438.5)                (520.4)
   Total Capital Leases                                          $           194.4    $             381.0




                                                                                     Financial Section
                                                99
U.S. Department of Defense Agency Financial Report for FY 2013


NOTE 11. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
 Liabilities Not Covered by Budgetary Resources                                    Dollars in Millions

 As of September 30                                                2013                  2012
 Intragovernmental Liabilities
  Accounts Payable                                            $            2.2    $             12.9
  Debt                                                                     1.7                   4.3
  Other                                                                1,936.8               2,141.0
  Total Intragovernmental Liabilities                         $        1,940.7    $          2,158.2
 Non-Federal Liabilities
  Accounts Payable                                            $          206.2    $            53.0
  Military Retirement and Other Federal Employment Benefits        1,670,714.4          1,771,202.7
  Environmental and Disposal Liabilities                              54,593.4             57,911.8
  Other Liabilities                                                   15,726.6             16,323.7
  Total Non-Federal Liabilities                               $    1,741,240.6    $     1,845,491.2
 Total Liabilities Not Covered by Budgetary Resources         $    1,743,181.3    $     1,847,649.4
 Total Liabilities Covered by Budgetary Resources             $      668,945.9    $       610,347.4
 Total Liabilities                                            $    2,412,127.2    $     2,457,996.8


Liabilities Not Covered by Budgetary Resources includes liabilities requiring congressional
action before budgetary resources can be provided.

Intragovernmental Accounts Payable represents subsidy payments for the Military Housing
Privatization Initiative and liabilities in canceled appropriations that, if paid, will be
disbursed using current year funds.
Non-Federal Accounts Payable primarily represents liabilities in canceled appropriations that,
if paid, will be disbursed using current year funds.

Debt consists primarily of borrowing from the U.S. Treasury for capital improvements to the
Washington Aqueduct Project. The related reimbursement to the Department by Arlington
County and Falls Church, Virginia, will be completed by 2023 and is recorded as non-Federal
accounts receivable.

Environmental Liabilities represents the Department’s liability for existing and anticipated
environmental clean-up and disposal. Refer to Note 14, Environmental Liabilities, for
additional details.

Intragovernmental Other Liabilities primarily consists of unfunded liabilities for Federal
Employees Compensation Act, Unemployment Insurance, and Judgment Fund.

Non-Federal Other Liabilities primarily consists of unfunded annual leave, contingent
liabilities, and expected expenditures for disposal of conventional munitions.

Military Retirement and Other Federal Employment Benefits consists of various employee
actuarial liabilities not due and payable during the current fiscal year. These liabilities
primarily consist of $1.1 trillion in pension liabilities and $558.5 billion in health benefit
liabilities. Refer to Note 17, Military Retirement and Other Federal Employment Benefits, for
additional details.




                                                                                 Financial Section
                                                    100
U.S. Department of Defense Agency Financial Report for FY 2013


NOTE 12. ACCOUNTS PAYABLE
 Accounts Payable                                                                        Dollars in Millions
                                                                2013
                                                         Interest, Penalties,
                                   Accounts Payable      and Administrative               Total
 As of September 30                                             Fees
 Intragovernmental Payables        $           1,574.7                    N/A    $                 1,574.7
 Non-Federal Payables
                                              20,138.9                   10.2                     20,149.1
 (To the Public)
 Total Accounts Payable            $          21,713.6   $               10.2    $                21,723.8


 Accounts Payable                                                                        Dollars in Millions
                                                                2012
                                                         Interest, Penalties,
                                   Accounts Payable      and Administrative               Total
 As of September 30                                             Fees
 Intragovernmental Payables        $           1,762.9                    N/A    $                 1,762.9
 Non-Federal Payables
                                              19,498.2                   (6.2)                   19,492.0
 (To the Public)
 Total Accounts Payable            $          21,261.1   $               (6.2)   $                21,254.9


Accounts Payable include amounts owed to Federal and non-Federal entities for goods and
services received by the Department. The Department’s systems do not track
intragovernmental accounts payable transactions by customer. Buyer-side accounts payable
are adjusted to agree with interagency seller-side accounts receivable by: (1) reclassifying
amounts between Federal and non-Federal accounts payable; (2) accruing additional
accounts payable and expenses; and (3) applying both supported and unsupported
undistributed disbursements at the reporting entity level.

NOTE 13. DEBT
 Debt                                                                                    Dollars in Millions
                                                                  2013
 As of September 30                Beginning Balance         Net Borrowing           Ending Balance
 Agency Debt (Intragovernmental)
  Debt to the Treasury             $            952.6    $              222.1    $                 1,174.7
 Total Agency Debt                 $            952.6    $              222.1    $                 1,174.7


 Debt                                                                                    Dollars in Millions
                                                                  2012
 As of September 30                Beginning Balance         Net Borrowing           Ending Balance
 Agency Debt (Intragovernmental)
  Debt to the Treasury             $            783.4    $              169.2    $                   952.6
 Total Agency Debt                 $            783.4    $              169.2    $                   952.6




                                                                                      Financial Section
                                               101
U.S. Department of Defense Agency Financial Report for FY 2013


The Department’s debt consists of interest and principal payments due to the U.S. Treasury.
The Department borrows funds for the Military Housing Privatization Initiative and the
Washington Aqueduct Capital Improvements Project.

The Department must pay the debt on direct loans if borrowers (e.g., local governments or
housing builders) default. For loan guarantees, the Department must pay the amount of
outstanding principal guaranteed.

NOTE 14. ENVIRONMENTAL AND DISPOSAL LIABILITIES
 Environmental and Disposal Liabilities                                                   Dollars in Millions
 As of September 30                                                         2013                2012
 Environmental Liabilities–Non-Federal
  Accrued Environmental Restoration Liabilities
    Active Installations – Installation Restoration Program (IRP) and
                                                                        $    10,026.3    $         10,571.0
    Building Demolition and Debris Removal (BD/DR)
    Active Installations – Military Munitions Response Program (MMRP)         3,416.9               3,953.9
    Formerly Used Defense Sites – IRP & BD/DR                                 3,018.8               3,063.4
    Formerly Used Defense Sites – MMRP                                       10,096.8              10,842.6
  Other Accrued Environmental Liabilities – Non-BRAC
    Environmental Corrective Action                                     $     1,005.9    $            786.4
    Environmental Closure Requirements                                        1,824.6               1,838.8
    Environmental Response at Operational – Ranges                              128.7                  93.7
    Asbestos                                                                  1,030.7               1,057.4
    Non-Military Equipment                                                      575.7                 554.1
    Other                                                                     1,107.9               1,121.7
  Base Realignment and Closure Installations (BRAC)
    Installation Restoration Program                                    $     3,394.9    $          3,388.2
    Military Munitions Response Program                                         690.3                 703.1
    Environmental Corrective Action/Closure Requirements                        197.6                 159.5
    Asbestos                                                                      0.3                   0.3
  Environmental Disposal for Military Equipment/Weapons Programs
    Nuclear Powered Military Equipment/Spent Nuclear Fuel               $    14,076.4    $         14,055.9
    Non-Nuclear Powered Military Equipment                                       36.4                  36.4
    Other Weapons Systems                                                       147.5                 146.0
  Chemical Weapons Disposal Program
     Chemical Demilitarization – Chemical Materials Agency (CMA)        $     1,503.8    $          3,691.1
     CAMD Demilitarization – Assembled Chemical Weapons Alternatives
                                                                              6,054.4               6,539.1
     (ACWA)
 Total Environmental Liabilities                                        $    58,333.9    $         62,602.6

Other Accrued Environmental Liabilities, Non-Base Realignment and Closure (BRAC), Other
consists primarily of Formerly Utilized Sites Remedial Action Program (FUSRAP)
remediation. The FUSRAP remediates radiological contamination from the Department of
Energy’s U.S. Atomic Energy and Weapons Program.
The unrecognized portion of the estimated total cleanup costs associated with General
Property, Plant, and Equipment (PP&E) is $3.2 billion for FY 2013. The amount reported
does not accurately reflect the Department’s total unrecognized costs associated with
General PP&E. The Department is implementing procedures to address deficiencies.

                                                                                        Financial Section
                                                   102
U.S. Department of Defense Agency Financial Report for FY 2013


OTHER DISCLOSURES
Types of Environmental Liabilities and Disposal Liabilities Identified
The Department has cleanup requirements for the Defense Environmental Restoration
Program (DERP) for active installations, BRAC installations, and Formerly Used Defense
Sites. The Department has additional cleanup requirements for active installations not
covered by DERP, weapon systems programs, and chemical weapons disposal programs.
The weapons systems program consists of chemical weapons disposal, nuclear powered
aircraft carriers, nuclear powered submarines, and other nuclear ships. All cleanup efforts
are performed in coordination with regulatory agencies, other responsible parties, and
current property owners.

Applicable Laws and Regulations for Cleanup Requirements
The Department is required to clean up contamination from past waste disposal practices,
leaks, spills, and other activity resulting in public health or environmental risk. The
Department accomplishes this effort in coordination with regulatory agencies and, if
applicable, other responsible parties and current property owners. The Department is also
required to recognize closure and post-closure costs for its General PP&E and environmental
corrective action costs for current operations. Each of the Department's major reporting
entities is responsible for tracking and reporting all required environmental information
related to environmental restoration costs, other accrued environmental costs, disposal
costs of weapon systems, and environmental costs related to BRAC actions.
The Department follows the Comprehensive Environmental Response, Compensation, and
Liability Act (CERCLA, Public Law 96-510), Superfund Amendments and Reauthorization Act
of 1986 (SARA, Public Law 99-499), Resource Conservation and Recovery Act (RCRA, Public
Law 94-580) or other applicable federal or state laws to clean up contamination. The
CERCLA and RCRA require the Department to clean up contamination in coordination with
regulatory agencies, current owners of property damaged by the Department, and third
parties with partial responsibility for environmental restoration. Failure to comply with
agreements and legal mandates puts the Department at risk of incurring fines and
penalties.
Laws concerning cleanup requirements for nuclear-powered naval vessels govern the
Department’s environmental policy and regulations. The Atomic Energy Act of 1954, as
amended, assures the proper management of source, special nuclear, and byproduct
materiel. The Department coordinates nuclear power actions with the Department of
Energy. The Nuclear Waste Policy Act of 1982 (Public Law 97-425) requires owners and
generators of high-level nuclear waste and spent nuclear fuel to pay their share of the cost
of the program. The Low-Level Radioactive Waste Policy Amendments Act of 1985 (Public
Law 99-240) provides for the safe and efficient management of low-level radioactive waste.

The Chemical Weapons Disposal Program is based on FY 1986 National Defense
Authorization Act (Public Law 99-145, as amended) directing the Department to destroy the
unitary chemical stockpile in accordance with the requirements of the Chemical Weapons
Convention Treaty.



                                                                           Financial Section
                                            103
U.S. Department of Defense Agency Financial Report for FY 2013


Methods for Assigning Total Cleanup Costs to Current Operating
Periods
The Department uses engineering estimates and independently validated models to project
environmental costs. The models include the Remedial Action Cost Engineering
Requirements application and the Normalization of Data System. The Department validates
the models in accordance with DoD Instruction 5000.61 “DoD Modeling and Simulation
Verification, Validation, and Accreditation” and estimates liabilities based on data received
during preliminary assessment and site investigation. The Department primarily uses
engineering     estimates    after   obtaining  extensive     data    during   the   remedial
investigation/feasibility phase of the environmental project.
Once the environmental cost estimates are complete, the Department complies with
accounting standards to charge costs to current operating periods. The Department
previously expensed cleanup costs for General PP&E placed into service prior to
October 1, 1997, unless costs are to be recovered through user charges. As costs are
recovered, the Department expenses cleanup costs associated with the asset life that has
passed since the General PP&E was placed into service. The Department systematically
recognizes the remaining cost over the life of the assets.

For General PP&E placed into service after September 30, 1997, the Department expenses
associated environmental costs using two methods: physical capacity for operating landfills
and life expectancy in years for all other assets. The Department expenses the full cost to
clean up contamination for Stewardship PP&E when the asset is placed into service.
In accordance with reporting requirements for asbestos, the Department reports liabilities
for buildings and facilities containing both friable and non-friable asbestos. At this time the
Department is unable to reasonably estimate an amount of the total cleanup costs.

Nature of Estimates and the Disclosure of Information Regarding
Possible Changes Due to Inflation, Deflation, Technology, or
Applicable Laws and Regulations
The Department revised estimates resulting from overlooked or previously unknown
contaminants, re-estimation based on different assumptions, and other changes in project
scope. Although the Department is unaware of pending changes, environmental liabilities
are subject to changes in laws and regulations, agreements with regulatory agencies, and
advances in technology.

Uncertainty Regarding the Accounting Estimates Used to Calculate
the Reported Environmental Liabilities
Accounting estimates for environmental liabilities use reasonable judgments and
assumptions based on available information. Actual results may materially vary if
agreements with regulatory agencies require remediation to a different degree than
anticipated when calculating the estimates. Liabilities can be further affected if investigation
of the environmental sites reveals contamination levels differing from estimate parameters.




                                                                              Financial Section
                                              104
U.S. Department of Defense Agency Financial Report for FY 2013


The Department is responsible for environmental restoration and corrective action for buried
chemical munitions and agents; however, it is unable to provide a reasonable estimate
because the extent of the buried chemical munitions and agents is unknown. The
Department is also unable to provide a complete estimate for FUSRAP. The Department has
ongoing studies and will update its estimate as additional liabilities are identified. In
addition, not all components of the Department recognize environmental liabilities
associated with General PP&E due to process and system limitations.
The Department has the potential to incur costs for restoration initiatives in conjunction with
returning overseas Defense facilities to host nations. The Department is unable to provide a
reasonable estimate because the extent of required restoration is unknown.




                                                                             Financial Section
                                             105
U.S. Department of Defense Agency Financial Report for FY 2013


NOTE 15. OTHER LIABILITIES
Other Liabilities                                                                         Dollars in Millions
                                                                  2013
                                                               Noncurrent
                                     Current Liability                                     Total
As of September 30                                              Liability
Intragovernmental
 Advances from Others            $                733.0    $                 0.0   $                  733.0
 Deposit Funds and Suspense
                                                 1,242.6                     0.0                    1,242.6
 Account Liabilities
 Disbursing Officer Cash                         1,577.7                     0.0                    1,577.7
 Judgment Fund Liabilities                         234.3                     0.0                      234.3
 FECA Reimbursement to the
                                                  621.3                 707.7                       1,329.0
 Department of Labor
 Custodial Liabilities                           4,498.7               2,383.7                      6,882.4
 Employer Contribution and
                                                  397.3                      0.0                      397.3
 Payroll Taxes Payable
 Other Liabilities                                 491.4                   0.0                       491.4
 Total Intragovernmental Other   $               9,796.3   $           3,091.4     $              12,887.7
Non-Federal
 Accrued Funded Payroll and
                                 $               9,857.5   $                 0.0   $                9,857.5
 Benefits
 Advances from Others                            4,862.7                     0.0                    4,862.7
 Deferred Credits                                    0.0                     0.0                        0.0
 Deposit Funds and Suspense
                                                  377.7                      0.0                      377.7
 Accounts
 Nonenvironmental Disposal
 Liabilities
    Military Equipment
                                                  161.5                     63.1                      224.6
    (Nonnuclear)
    Excess/Obsolete Structures                      79.2                218.9                         298.1
    Conventional Munitions
                                                     0.0               2,136.6                      2,136.6
    Disposal
 Accrued Unfunded Annual Leave                  10,504.7                     0.0                   10,504.7
 Capital Lease Liability                           171.7                    14.3                      186.0
 Contract Holdbacks                              1,569.9                     0.2                    1,570.1
 Employer Contribution and
                                                  398.9                      0.0                      398.9
 Payroll Taxes Payable
 Contingent Liabilities                           523.7                6,296.1                      6,819.8
 Other Liabilities                                156.8                    0.0                        156.8
 Total Non-Federal Other
                                 $              28,664.3   $           8,729.2     $              37,393.5
 Liabilities
Total Other Liabilities          $              38,460.6   $          11,820.6     $              50,281.2




                                                                                       Financial Section
                                                 106
U.S. Department of Defense Agency Financial Report for FY 2013


Other Liabilities                                                                          Dollars in Millions
                                                                   2012
                                                                Noncurrent
                                      Current Liability                                     Total
As of September 30                                               Liability
Intragovernmental
  Advances from Others            $               1,185.8   $                 0.0   $                1,185.8
  Deposit Funds and Suspense
                                                   153.3                      0.0                      153.3
  Account Liabilities
  Disbursing Officer Cash                         1,889.4                     0.0                    1,889.4
  Judgment Fund Liabilities                         328.1                     0.0                      328.1
  FECA Reimbursement to the
                                                   616.9                 756.1                       1,373.0
  Department of Labor
  Custodial Liabilities                           4,647.9               2,508.0                      7,155.9
  Employer Contribution and
                                                   365.6                      0.0                      365.6
  Payroll Taxes Payable
  Other Liabilities                                 490.5                   0.0                        490.5
  Total Intragovernmental Other   $               9,677.5   $           3,264.1     $               12,941.6
Non-Federal
  Accrued Funded Payroll and
                                  $               9,387.2   $                 0.0   $                9,387.2
  Benefits
  Advances from Others                            4,225.2                     0.0                    4,225.2
  Deferred Credits                                    0.0                     0.0                        0.0
  Deposit Funds and Suspense
                                                   473.1                      0.0                      473.1
  Accounts
  Nonenvironmental Disposal
  Liabilities
     Military Equipment
                                                   151.3                     26.5                      177.8
     (Nonnuclear)
     Excess/Obsolete Structures                      66.1                525.6                         591.7
     Conventional Munitions
                                                      0.0               2,136.6                      2,136.6
     Disposal
  Accrued Unfunded Annual Leave                  10,638.2                     0.0                   10,638.2
  Capital Lease Liability                           184.0                    22.3                      206.3
  Contract Holdbacks                                964.2                     0.2                      964.4
  Employer Contribution and
                                                   371.4                      0.0                      371.4
  Payroll Taxes Payable
  Contingent Liabilities                           531.9                6,421.2                      6,953.1
  Other Liabilities                                182.6                    0.5                        183.1
  Total Non-Federal Other
                                  $              27,175.2   $           9,132.9     $              36,308.1
  Liabilities
Total Other Liabilities           $              36,852.7   $          12,397.0     $               49,249.7




                                                                                        Financial Section
                                                  107
U.S. Department of Defense Agency Financial Report for FY 2013


 Capital Lease Liability                                                                     Dollars in Millions
                                                                    2013 – Asset Category
                                                  Land and
                                                               Equipment           Other            Total
 As of September 30                               Buildings
 Future Payments Due
   2014                                           $       30.1 $          0.0 $            1.1 $         31.2
   2015                                                   30.7            0.0              0.0           30.7
   2016                                                   21.4            0.0              0.0           21.4
   2017                                                   22.1            0.0              0.0           22.1
   2018                                                   22.5            0.0              0.0           22.5
   After 5 Years                                         146.4            0.0              0.0          146.4
   Total Future Lease Payments Due                $      273.2 $          0.0 $            1.1 $        274.3
   Less: Imputed Interest Executory Costs                 88.3            0.0              0.0           88.3
 Net Capital Lease Liability                      $      184.9 $          0.0 $            1.1 $        186.0
 Capital Lease Liabilities Covered by Budgetary Resources                                               186.0
 Capital Lease Liabilities Not Covered by Budgetary Resources                                             0.0


 Capital Lease Liability                                                                     Dollars in Millions
                                                                    2012 – Asset Category
                                                  Land and
                                                                   Equipment       Other            Total
 As of September 30                               Buildings
 Future Payments Due
   2013                                           $       17.5 $           0.1 $           2.8 $          20.4
   2014                                                   19.6             0.0             1.1            20.7
   2015                                                   19.1             0.0             0.0            19.1
   2016                                                   10.4             0.0             0.0            10.4
   2017                                                   11.7             0.0             0.0            11.7
   After 5 Years                                         126.9             0.0             0.0           126.9
   Total Future Lease Payments Due                $      205.2 $           0.1 $           3.9 $         209.2
   Less: Imputed Interest Executory Costs                  2.9             0.0             0.0             2.9
 Net Capital Lease Liability                      $      202.3 $           0.1 $           3.9 $         206.3
 Capital Lease Liabilities Covered by Budgetary Resources                                                206.3
 Capital Lease Liabilities Not Covered by Budgetary Resources                                              0.0

Intragovernmental Other Liabilities primarily consists of unemployment compensation
liabilities.

Non-Federal Other Liabilities primarily consist of accruals for services, accrued liabilities for
inventory owned and managed on behalf of foreign governments, and undistributed
international tariff receipts.

Contingent Liabilities includes $3.7 billion related to contracts authorizing progress
payments based on cost as defined in the Federal Acquisition Regulation (FAR). In
accordance with contract terms, specific rights to contractors’ work vests with the Federal
Government when a specific type of contract financing payment is made. This action
protects taxpayer funds in the event of contract nonperformance. These rights should not
be misconstrued as rights of ownership. The Department is under no obligation to pay
contractors amounts in excess of progress payments until delivery and government
acceptance. Due to the probability the contractors will complete their efforts and deliver


                                                                                       Financial Section
                                                 108
U.S. Department of Defense Agency Financial Report for FY 2013


satisfactory products, and because the amount of contractor costs incurred but yet unpaid
are estimable, the Department has recognized a contingent liability for the estimated unpaid
costs that are considered conditional for payment pending delivery and government
acceptance.

Total contingent liabilities for progress payments based on cost represent the difference
between the estimated costs incurred to date by contractors and amounts authorized to be
paid under progress payments based on cost provisions within the FAR. Estimated
contractor-incurred costs are calculated by dividing the cumulative unliquidated progress
payments based on cost by the contract-authorized progress payment rate. The balance of
unliquidated progress payments based on cost is deducted from the estimated total
contractor-incurred costs to determine the contingency amount.

NOTE 16. COMMITMENTS AND CONTINGENCIES
Legal Contingencies
The Department is a party in various administrative proceedings and legal actions related to
claims for environmental damage, equal opportunity matters, and contractual bid protests.
The Department has accrued contingent liabilities for legal actions where the Office of
General Counsel (OGC) considers an adverse decision probable and the amount of loss is
measurable. In the event of an adverse judgment against the Government, some of the
liabilities may be payable from the U.S. Treasury Judgment Fund.

The Department reports 44 legal actions with individual claims greater than the
Department’s FY 2013 materiality threshold of $139.3 million. The total of the 44 actions is
approximately $13 trillion. Of this amount, the OGC determined that claims totaling
approximately $7.3 billion are classified “reasonably possible,” $3 trillion are classified
“remote,” and $10 trillion are classified “unable to determine the probability of loss.” The
Department also had a number of potential claims that individually did not meet the
Department's materiality threshold but did meet the individual Components’ thresholds.
These claims are disclosed in the Components' financial statements.

Other Commitments and Contingencies
The Department is a party in numerous individual contracts that contain clauses, such as
price escalation, award fee payments, or dispute resolution, that may result in a future
outflow of expenditures. Currently, the Department has limited automated system
processes by which it captures or assesses these potential contingent liabilities. Therefore,
the amounts reported may not fairly present the Department’s contingent liabilities.
Contingencies considered both measurable and probable have been recognized as liabilities.
Refer to Note 15, Other Liabilities, for further information.




                                                                            Financial Section
                                            109
U.S. Department of Defense Agency Financial Report for FY 2013


NOTE 17. MILITARY RETIREMENT AND OTHER FEDERAL EMPLOYMENT
BENEFITS
Military Retirement and Other Federal Employment Benefits                                                  Dollars in Millions
                                                                                 2013
                                                                            (Less: Assets
                                                                                                         Unfunded
                                                Liabilities                Available to Pay
                                                                                                         Liabilities
As of September 30                                                            Benefits)
Pension and Health Actuarial Benefits
 Military Retirement Pensions       $                  1,519,779.5     $              (416,190.0)   $          1,103,589.5
 Military Retirement Health
                                                         243,049.7                           0.0                 243,049.7
 Benefits
 Military Medicare-Eligible Retiree
                                                         502,399.5                    (186,963.8)                315,435.7
 Benefits
Total Pension and Health
                                    $                  2,265,228.7     $              (603,153.8)   $          1,662,074.9
Actuarial Benefits
Other Benefits
 FECA                               $                      6,749.8     $                      0.0   $               6,749.8
 Voluntary Separation Incentive
                                                              587.9                       (265.6)                      322.3
 Programs
 DoD Education Benefits Fund                               1,369.3                      (1,369.3)                       0.0
 Other                                                     6,632.1                      (5,064.9)                   1,567.2
 Total Other Benefits               $                     15,339.1     $                (6,699.8)   $               8,639.3
Total Military Retirement and
Other Federal Employment            $                  2,280,567.8     $              (609,853.6)   $          1,670,714.2
Benefits
Actuarial Cost Method Used: Aggregate Entry-Age Method
Assumptions: Effective Interest
Market Value of Investments in Market-based and Marketable Securities: $773 billion




                                                                                                        Financial Section
                                                            110
U.S. Department of Defense Agency Financial Report for FY 2013


Military Retirement and Other Federal Employment Benefits                                                  Dollars in Millions
                                                                                 2012
                                                                            (Less: Assets
                                                                                                         Unfunded
                                                Liabilities                Available to Pay
                                                                                                         Liabilities
As of September 30                                                            Benefits)
Pension and Health Actuarial Benefits
 Military Retirement Pensions             $            1,477,918.0     $            (371,657.5)     $          1,106,260.5
 Military Retirement Health
                                                         298,216.9                           0.0                 298,216.9
 Benefits
 Military Medicare-Eligible Retiree
                                                         532,781.3                  (174,703.7)                  358,077.6
 Benefits
Total Pension and Health
                                          $            2,308,916.2     $            (546,361.2)     $          1,762,555.0
Actuarial Benefits
Other Actuarial Benefits
 FECA                                     $                 6,540.8    $                     0.0    $               6,540.8
 Voluntary Separation Incentive
                                                              678.2                      (308.5)                       369.7
 Programs
 DoD Education Benefits Fund                               1,385.4                      (1,385.4)                       0.0
 Other                                                     6,403.7                      (4,666.3)                   1,737.4
 Total Other Actuarial Benefits           $               15,008.1     $                (6,360.2)   $               8,647.9
Total Military Retirement and
Other Federal Employment                  $            2,323,924.3     $            (552,721.4)     $          1,771,202.9
Benefits
Actuarial Cost Method Used: Aggregate Entry-Age Method
Assumptions: Effective Interest
Market Value of Investments in Market-based and Marketable Securities: $807.7 billion




                                                                                                        Financial Section
                                                            111
U.S. Department of Defense Agency Financial Report for FY 2013


 Military Retirement and Other Federal Employment Benefits                                               Dollars in Millions
                                                                          2013
                                                      Military Pre-
                                                                          Military
                                                        Medicare                            Voluntary
                                        Military                         Medicare-                              DoD
                                                        Eligible                            Separation
                                      Retirement                          Eligible                           Education
                                                         Retiree                             Incentive
                                       Pensions                        Retiree Health                       Benefits Fund
                                                         Health                             Programs
                                                                         Benefits
 As of September 30                                     Benefits
 Beginning Actuarial Liability    $ 1,477,918.0       $ 298,216.9      $ 532,781.3      $        678.2      $     1,385.4
 Normal Cost Liability                  31,699.1         10,777.2          11,496.6                 0.0             166.2
 Interest Cost                          67,465.6         13,949.8          24,817.7                21.3               53.4
 Plan Amendments                              0.0        (3,265.0)       (43,560.9)                 0.0                0.0
 Experience Losses (Gains)            (14,703.5)           5,837.3        (9,615.3)              (11.0)             (65.0)
 Other factors                              (0.2)              (0.2)            0.0                 0.1             136.2
 Subtotal: Expenses before
 Losses (Gains) from Actuarial           84,461.0          27,299.1      (16,861.9)                10.4              290.8
 Assumption Changes
 Actuarial (Gain)/Loss due to :
   Changes in trend assumptions                0.0     (16,894.7)        (24,355.0)                 0.0                 0.0
   Changes in assumptions other
                                         11,906.3      (53,967.9)          20,467.0                 5.7                 0.0
   than trend
 Subtotal: Losses (Gains) from
                                         11,906.3      (70,862.6)         (3,888.0)                 5.7                 0.0
 Actuarial Assumption Changes
 Total Expenses                          96,367.3      (43,563.5)        (20,749.9)               16.1               290.8
 Less Benefit Outlays                    54,505.8        11,603.7           9,631.9              106.4               306.9
 Total Changes in Actuarial
                                  $     41,861.5     $ (55,167.2)      $ (30,381.8)     $        (90.3)      $      (16.1)
 Liability
 Ending Actuarial Liability       $ 1,519,779.5       $ 243,049.7      $ 502,399.5      $        587.9       $    1,369.3

The Department complies with SFFAS No. 33, “Pensions, Other Retirement Benefits, and
Other Postemployment Benefits: Reporting the Gains and Losses from Changes in
Assumptions and Selecting Discount Rates and Valuation Dates.” The standard requires the
separate presentation of gains and losses from changes in long-term assumptions used to
estimate liabilities associated with pensions, other retirement and postemployment benefits.
The SFFAS No. 33 also provides a standard for selecting the discount rate and valuation
date used in estimating these liabilities.

Military Retirement Pensions
The Military Retirement Fund is a defined benefit plan authorized by Public Law (PL) 98-94
to provide funds used to pay annuities and pensions to retired military personnel and their
survivors. The Department of Defense (DoD) Board of Actuaries approves the long-term
economic assumptions for inflation, salary, and interest. The actuaries calculate the
actuarial liabilities annually using economic assumptions and actual experience
(e.g., mortality and retirement rates). Due to reporting deadlines, the current year actuarial
present value of projected plan benefits rolls forward from the prior year’s valuation results.
The actuaries used the following assumptions to calculate the FY 2013 roll-forward amount:




                                                                                                  Financial Section
                                                     112
U.S. Department of Defense Agency Financial Report for FY 2013


 Military Retirement Pensions                     Inflation                     Salary                 Interest
 Fiscal Year 2013                               1.7% (actual)                1.7% (actual)               4.6%
 Fiscal Year 2014                             2.0% (estimated)             1.0% (estimated)              4.3%
 Long Term                                         2.4%                         2.8%                     4.3%
 Actuarial Cost Method Used: Aggregate Entry-Age Normal Method
 Market Value of Investments in Market-Based and Marketable Securities: $526.2 billion
 Assumed Interest Rate: 4.3%


Historically, the initial unfunded liability of the program was amortized over a 50-year
period. Effective FY 2008, the initial unfunded liability is amortized over a 42-year period to
ensure annual payments cover interest on the unfunded actuarial liability, with the last
payment expected October 1, 2025. All subsequent gains and losses experienced are
amortized over a 30-year period.

Military Retirement Health Benefits (MRHB)
The MRHB are post-retirement benefits the Department provides to non-Medicare-eligible
military retirees and other eligible beneficiaries through private sector health care providers
and the Department’s medical treatment facilities. The actuaries calculate actuarial liabilities
annually using assumptions and actual experience. In FY 2013, the actuaries revised the
cost basis for the estimate to include only operations and maintenance and military
personnel costs in order to reflect the operational environment of the Military Health System
as it relates to retirees. For the FY 2013 actuarial liability calculation, actuaries used the
following assumptions:

                                                                                         FY 2012 –     Ultimate Rate
 MHRB Medical Trend
                                                                                          FY 2013         FY 2037
 Medicare Inpatient (Direct Care)                                                         0.13%            5.15%
 Medicare Outpatient (Direct Care)                                                        2.13%            5.15%
 Medicare Prescriptions (Direct Care)                                                     0.00%            5.15%
 Non-Medicare Inpatient (Direct Care)                                                     4.00%            5.15%
 Non-Medicare Outpatient (Direct Care)                                                    5.50%            5.15%
 Non-Medicare Prescriptions (Direct Care)                                                 3.10%            5.15%
 Non-Medicare Inpatient (Purchased Care)                                                  2.70%            5.15%
 Non-Medicare Outpatient (Purchased Care)                                                 4.48%            5.15%
 Non-Medicare Prescriptions (Purchased Care)                                              3.81%            5.15%
 U.S. Family Health Plan (USFHP) (Purchased Care)                                         4.39%            5.15%
 Actuarial Cost Method Used: Aggregate Entry-Age Normal Method
 Assumed Interest Rate: 4.4%


Medicare-Eligible Retiree Health Care Fund (MERHCF) Benefits
In accordance with PL 106-398, MERHCF accumulates funds to finance the health care
program liabilities of Medicare-eligible retirees for all the Uniformed Services and specific
Medicare-eligible beneficiaries. The DoD Board of Actuaries approves the long-term
assumptions for medical trends and interest. The actuaries calculate the actuarial liabilities
annually using actual experience (e.g., mortality and retirement rates, direct care costs,
purchased care). Due to reporting deadlines, the current year actuarial present value of
projected plan benefits rolls forward from the prior year’s results. The actuaries used the
following assumptions to calculate the FY 2013 roll-forward amount:

                                                                                                     Financial Section
                                                             113
U.S. Department of Defense Agency Financial Report for FY 2013


                                                                                         FY 2012 –      Ultimate Rate
 MERHCF Benefits – Medical Trend
                                                                                          FY 2013          FY 2037
 Medicare Inpatient (Direct Care)                                                         0.13%              5.15%
 Medicare Inpatient (Purchased Care)                                                      2.13%              5.15%
 Medicare Outpatient (Direct Care)                                                        2.13%              5.15%
 Medicare Outpatient (Purchased Care)                                                     3.13%              5.15%
 Medicare Prescriptions (Direct Care)                                                     0.00%              5.15%
 Medicare Prescriptions (Purchased Care)                                                  4.54%              5.15%
 Medicare USFHP (Purchased Care)                                                          3.14%              5.15%
 Actuarial Cost Method Used: Aggregate Entry-Age Normal Method
 Market Value of Investments in Market-Based and Marketable Securities: $244.4 billion
 Assumed Interest Rate: 4.4%


The MERHCF liability includes Medicare liabilities for all Uniformed Services. The
$502.4 billion liability includes $490.8 billion for the Department, $10.3 billion for the Coast
Guard, $1.2 billion for the Public Health Service and $76.0 million for National Oceanic and
Atmospheric Administration (NOAA). The FY 2013 contributions from each of the Uniformed
Services were $8.3 billion from the Department, $201.6 million from the Coast Guard,
$27.6 million from the Public Health Service, and $1.4 million from NOAA.

Federal Employees Compensation Act (FECA)
The Department of Labor (DOL) annually determines the liability for future workers’
compensation benefits, which includes the expected liability for death, disability, medical,
and miscellaneous costs for approved compensation cases, plus a component for
incurred-but-not-reported claims. The liability is determined using historical benefit
payment patterns related to a specific incurred period to predict the final payment related to
that period. Consistent with past practice, these projected annual benefit payments have
been discounted to present value using the OMB’s economic assumptions for 10-year
U.S. Treasury notes and bonds. An interest rate for wage benefits of 2.7 percent was
assumed for year one and 3.1 percent for year two and thereafter. An interest rate for
medical benefits of 2.3 percent was assumed for year one and 2.9 percent for year two and
thereafter.
The DOL calculates this liability using wage inflation factors (cost of living adjustments or
COLAs) and medical inflation factors (consumer price index medical or CPIM). The actual
rates for these factors for charge back year (CBY) 2013 were also used to adjust the
methodology’s historical payments to current year constant dollars. The compensation
COLAs and CPIMs used in the projections for various charge back years were as follows:

                                Federal Employees – Compensation Act (FECA)
                  CBY                              COLA                                              CPIM
                  2014                                      1.67%                                    3.46%
                  2015                                      1.80%                                    3.82%
                  2016                                      2.20%                                    3.83%
                  2017                                      2.20%                                    3.82%
                 2018+                                      2.20%                                    3.82%




                                                                                                      Financial Section
                                                             114
U.S. Department of Defense Agency Financial Report for FY 2013


The model’s resulting projections were analyzed by DOL to ensure the estimates were
reliable. The analysis was based on four tests: (1) a sensitivity analysis of the model of
economic assumptions; (2) a comparison of the percentage change in the liability amount to
the percentage change in the actual incremental payments; (3) a comparison of the
incremental paid losses per case (a measure of case-severity) in CBY 2013 to the average
pattern observed during the prior three charge back years; and (4) a comparison of the
estimated liability per case in the 2013 projection to the average pattern for the projections
for the most recent three years.

Voluntary Separation Incentive (VSI) Program
The VSI Program was established by PL 102-190 to reduce the number of military personnel
on active duty. The DoD Board of Actuaries approved the assumed annual interest rate of
3.2 percent used to calculate the actuarial liability. Since VSI is no longer offered, the
actuarial liability calculated annually is expected to continue to decrease with benefit outlays
and increase with interest cost.

Market Value of Investments in Market-based and Marketable Securities: $278.4 million

DoD Education Benefits Fund (EBF)
The EBF was established by PL 98-525 to recruit and retain military members and aid in the
readjustment of military members to civilian life. The actuaries calculate the actuarial
liability annually based on the assumed interest rate of 3.5% that was approved by the DoD
Board of Actuaries.
Market Value of Investments in Market-based and Marketable Securities: $2.1 billion

Other Federal Employment Benefits
Other Federal Employment Benefits primarily consists of accrued pensions and annuities,
and an estimated liability for incurred-but-not-reported medical claims not processed prior
to fiscal year-end.




                                                                              Financial Section
                                              115
U.S. Department of Defense Agency Financial Report for FY 2013


NOTE 18. GENERAL DISCLOSURES RELATED TO THE STATEMENT OF NET
COST
Costs and Exchange Revenue                                                            Dollars in Millions
As of September 30                                                     2013                 2012
Military Retirement Benefits
1. Gross Cost
  A. Intragovernmental Cost                                        $        205.3    $              6.1
  B. Non-Federal Cost                                              $     64,217.0    $         85,564.3
  C. Total Cost                                                    $     64,422.3    $         85,570.4
2. Earned Revenue
  A. Intragovernmental Revenue                                     $   (22,387.6)    $       (19,073.3)
  B. Non-Federal Revenue                                           $          0.0    $              0.0
  C. Total Revenue                                                 $   (22,387.6)    $       (19,073.3)
3. Losses/(Gains) from Actuarial Assumption Changes for Military
                                                                   $      8,018.2    $         88,311.0
Retirement Benefits
Total Net Cost                                                     $     50,052.9    $       154,808.1
Civil Works
1. Gross Cost
  A. Intragovernmental Cost                                        $      1,465.1    $          1,435.6
  B. Non-Federal Cost                                              $      8,291.6    $          9,531.6
  C. Total Cost                                                    $      9,756.7    $         10,967.2
2. Earned Revenue
  A. Intragovernmental Revenue                                     $    (1,135.5)    $         (1,393.5)
  B. Non-Federal Revenue                                           $      (700.4)    $           (774.1)
  C. Total Revenue                                                 $    (1,835.9)    $         (2,167.6)
3. Losses/(Gains) from Actuarial Assumption Changes for Military
                                                                   $          0.0    $                0.0
Retirement Benefits
Total Net Cost                                                     $      7,920.8    $          8,799.6
Military Personnel
1. Gross Cost
  A. Intragovernmental Cost                                        $     30,997.8    $        38,673.2
  B. Non-Federal Cost                                              $    115,054.3    $       111,657.3
  C. Total Cost                                                    $    146,052.1    $       150,330.5
2. Earned Revenue
  A. Intragovernmental Revenue                                     $    (1,155.6)    $         (1,119.5)
  B. Non-Federal Revenue                                           $        (3.1)    $           (339.1)
  C. Total Revenue                                                 $    (1,158.7)    $         (1,458.6)
3. Losses/(Gains) from Actuarial Assumption Changes for Military
                                                                   $          0.0    $                0.0
Retirement Benefits
Total Net Cost                                                     $    144,893.4    $       148,871.9
Operations, Readiness & Support
1. Gross Cost
  A. Intragovernmental Cost                                        $   (49,654.7)    $       (56,303.5)
  B. Non-Federal Cost                                              $   342,398.9     $       352,007.6
  C. Total Cost                                                    $   292,744.2     $       295,704.1
2. Earned Revenue
  A. Intragovernmental Revenue                                     $      8,918.3    $         13,726.5
  B. Non-Federal Revenue                                           $   (40,099.7)    $       (48,357.2)


                                                                                    Financial Section
                                                     116
U.S. Department of Defense Agency Financial Report for FY 2013


Costs and Exchange Revenue                                                            Dollars in Millions
As of September 30                                                     2013                 2012
  C. Total Revenue                                                 $   (31,181.4)    $       (34,630.7)
3. Losses/(Gains) from Actuarial Assumption Changes for Military
                                                                   $   (70,856.8)    $       (17,883.7)
Retirement Benefits
Total Net Cost                                                     $    190,706.0    $       243,189.7
Procurement
1. Gross Cost
  A. Intragovernmental Cost                                        $     31,638.1    $        30,773.4
  B. Non-Federal Cost                                              $     44,578.0    $        99,805.4
  C. Total Cost                                                    $     76,216.1    $       130,578.8
2. Earned Revenue
  A. Intragovernmental Revenue                                     $    (2,104.6)    $         (3,192.3)
  B. Non-Federal Revenue                                           $      (935.0)    $           (305.7)
  C. Total Revenue                                                 $    (3,039.6)    $         (3,498.0)
3. Losses/(Gains) from Actuarial Assumption Changes for Military
                                                                   $          0.0    $                0.0
Retirement Benefits
Total Net Cost                                                     $     73,176.5    $       127,080.8
Research, Development, Test & Evaluation
1. Gross Cost
  A. Intragovernmental Cost                                        $     21,332.1    $         22,256.0
  B. Non-Federal Cost                                              $     48,988.9    $         54,516.6
  C. Total Cost                                                    $     70,321.0    $         76,772.6
2. Earned Revenue
  A. Intragovernmental Revenue                                     $    (5,126.6)    $         (7,676.9)
  B. Non-Federal Revenue                                           $    (2,687.8)    $         (1,590.3)
  C. Total Revenue                                                 $    (7,814.4)    $         (9,267.2)
3. Losses/(Gains) from Actuarial Assumption Changes for Military
                                                                   $          0.0    $                0.0
Retirement Benefits
Total Net Cost                                                     $     62,506.6    $         67,505.4
Family Housing & Military Construction
1. Gross Cost
  A. Intragovernmental Cost                                        $      1,494.7    $          2,019.9
  B. Non-Federal Cost                                              $     34,849.0    $         29,787.6
  C. Total Cost                                                    $     36,343.7    $         31,807.5
2. Earned Revenue
  A. Intragovernmental Revenue                                     $    (7,147.1)    $        (8,579.0)
  B. Non-Federal Revenue                                           $      (445.0)    $        (4,630.4)
  C. Total Revenue                                                 $    (7,592.1)    $       (13,209.4)
3. Losses/(Gains) from Actuarial Assumption Changes for Military
                                                                   $          0.0    $                0.0
Retirement Benefits
Total Net Cost                                                     $     28,751.6    $         18,598.1
Consolidated
1. Gross Cost
  A. Intragovernmental Cost                                        $     37,478.4    $        38,860.7
  B. Non-Federal Cost                                              $    658,377.7    $       742,870.4
  C. Total Cost                                                    $    695,856.1    $       781,731.1
2. Earned Revenue
  A. Intragovernmental Revenue                                     $   (30,138.7)    $       (27,308.0)


                                                                                    Financial Section
                                                     117
U.S. Department of Defense Agency Financial Report for FY 2013


 Costs and Exchange Revenue                                                            Dollars in Millions
 As of September 30                                                     2013                 2012
   B. Non-Federal Revenue                                           $   (44,871.0)    $       (55,996.8)
   C. Total Revenue                                                 $   (75,009.7)    $       (83,304.8)
 3. Losses/(Gains) from Actuarial Assumption Changes for Military
                                                                    $   (62,838.6)    $         70,427.3
 Retirement Benefits
 4. Costs Not Assigned to Programs                                  $          0.0    $             0.0
 5. (Less: Earned Revenues) Not Attributed to Programs              $          0.0    $             0.0
 Total Net Cost                                                     $    558,007.8    $       768,853.6



Abnormal Balances
Operations, Readiness & Support Intragovernmental Gross Cost and Earned Revenue on the
SNC have abnormal balances of $49.7 billion and $9.0 billion, respectively. The current
business practice is to include all elimination reporting in this program group, which results
in the abnormal balance presentation.

Other Disclosures
The SNC represents the net cost of programs and organizations of the Department
supported by appropriations or other means. The intent of the SNC is to provide gross and
net cost information related to the amount of output or outcome for a given program or
organization administered by a responsible reporting entity. The Department’s current
processes and systems capture costs based on appropriation groups as presented in the
schedule above. The lower level costs for major programs are not presented as required by
the Government Performance and Results Act. The Department is in the process of
reviewing available data and developing a cost reporting methodology required by SFFAS
No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government,”
amended by SFFAS No. 30, “Inter-Entity Cost Implementation.”

Intragovernmental costs and revenue represent transactions between two reporting entities
within the Federal Government. Public costs and revenues are exchange transactions
between the reporting entity and a non-Federal entity.
The Department’s systems do not track intragovernmental transactions by customer. Buyer
side expenses are adjusted to agree with internal seller side revenues. Expenses are
generally adjusted by reclassifying amounts between Federal and non-Federal expenses.
Intradepartmental revenues and expenses are then eliminated.
The SNC presents information based on budgetary obligation, disbursement, and collection
transactions, as well as data from nonfinancial feeder systems. General Fund data is
primarily derived from budgetary transactions (obligations, disbursements, and collections),
data from nonfinancial feeder systems, and accruals (payroll expenses, accounts payable,
and environmental liabilities). Working Capital Funds primarily record transactions on an
accrual basis; however, the systems do not always capture actual costs timely.

The Department’s accounting systems generally do not capture information relative to
heritage assets separately and distinctly from normal operations.



                                                                                     Financial Section
                                                      118
U.S. Department of Defense Agency Financial Report for FY 2013


The Department’s military retirement and postemployment costs are reported in accordance
with SFFAS 33, “Pensions, Other Retirement Benefits, and Other Postemployment Benefits:
Reporting the Gains and Losses from Changes in Assumptions and Selecting Discount Rates
and Valuation Dates.” The standard requires the separate presentation of gains and losses
from changes in long term assumptions used to estimate liabilities associated with pensions,
other retirement benefits, and other postemployment benefits on the SNC. SFFAS No. 33
also provides a standard for selecting the discount rate and valuation date used to estimate
these liabilities.

NOTE 19. DISCLOSURES RELATED TO THE STATEMENT OF CHANGES IN NET
POSITION
Other Financing Sources, Other consists primarily of nonexchange gains and losses
necessary to reconcile the proprietary and budgetary amounts, as well as gains and losses
on disposition of assets. Due to financial system limitations, the Department adjusts for
these unreconciled differences.

Effective with FY 2013 reporting, the Department has elected an alternative presentation for
the Statement of Changes in Net Position (SCNP) as provided for in SFFAS 43: “Funds from
Dedicated Collections: Amending SFFAS 27, Identifying and Reporting Earmarked Funds.”
Prior to the implementation of SFFAS 43, the SCNP contained separate columns for
reporting of funds from dedicated collections. Beginning in FY 2013, the SCNP includes a
reference to the “Funds from Dedicated Collections” footnote and no longer includes a
separate column on the face of the statement.
Appropriations Received on the Statement of Budgetary Resources (SBR) exceed
Appropriations Received on the SCNP by $23.4 billion. This difference represents
$123.9 billion in trust and special fund receipts reported as exchange revenue on the
Statement of Net Cost and $0.2 billion in receipts and appropriations made available for
obligation included in appropriations on the SBR, offset by $57.0 billion in receipts and
appropriations temporarily precluded from obligation, $42.7 billion in permanent reductions,
and $1.0 billion in receipts unavailable for obligation upon collection and current year
authority transfers.

NOTE 20. DISCLOSURES RELATED TO THE STATEMENT OF BUDGETARY
RESOURCES
 Disclosures Related to the Statement of Budgetary Resources                                Dollars in Millions
 As of September 30                                                          2013                 2012
 Net Amount of Budgetary Resources Obligated for Undelivered Orders at
                                                                         $    458,821.6    $       486,886.1
 the End of the Period.

Reconciliation Differences
Appropriations Received on the SBR exceed Appropriations Received on the Statement of
Changes in Net Position by $23.4 billion. This difference represents $123.9 billion in trust
and special fund receipts reported as exchange revenue on the Statement of Net Cost and
$0.2 billion in receipts and appropriations made available for obligation included in
appropriations on the SBR, offset by $57.0 billion in receipts and appropriations temporarily


                                                                                          Financial Section
                                                    119
U.S. Department of Defense Agency Financial Report for FY 2013


precluded from obligation, $42.7 billion in permanent reductions, and $1.0 billion in receipts
unavailable for obligation upon collection and current year authority transfers.

In accordance with OMB guidance, $109.7 billion of General Fund appropriations received by
the Department are also recognized on the SBR as appropriations received for trust and
special funds. The primary difference is due to this OMB guidance requiring duplicate
reporting on the SBR for the Military Services’ contributions and U.S. Treasury’s payments
to the Military Retirement Trust Fund and Medicare-Eligible Retiree Health Care Fund.
The SBR FY 2012 column includes $109.9 billion more in budget authority than reported in the
2012 actual column of the President’s FY 2014 Budget. The difference is primarily due to
duplicate reporting in the SBR of the Military Services’ contributions and U.S. Treasury’s
payments to the Military Retirement Trust Fund and Medicare-Eligible Retiree Health Care Fund.
The SBR FY 2012 column includes $449.6 million more in obligations than reported in the
2012 actual column of the President’s FY 2014 Budget. The difference is primarily due to the
timing of the recognition of obligations.

The SBR FY 2012 column includes $25.6 billion less in net outlays than reported in the 2012
actual column of the President’s FY 2014 Budget. The SBR reduces net outlays by the
distributed offsetting receipts. The President’s Budget does not reduce the Department’s
outlays by the distributed offsetting receipts.

Permanent Indefinite Appropriations
The Department of Defense received the following permanent indefinite appropriations:

Department of the Army General Gift Fund (10 USC 2601(C)(1))

Department of the Navy General Gift Fund (10 USC 2601(C)(2))

Department of the Air Force General Gift Fund (10 USC 2601(C)(3))

Department of Defense General Gift Fund (10 USC 2601)

Disposal of Department of Defense Real Property (40 USC 485(h)(2)(A)(B))

Lease of Department of Defense Real Property (40 USC 485(h)(2)(A)(B))
Foreign National Employees Separation Pay Account, Defense (10 USC 1581)

United States Naval Academy Gift and Museum Fund (10 USC 6973-4)
Ship Stores Profits, Navy (10 USC 7220, 31 USC 1321)

Burdensharing Contributions (10 USC 2350j)

Forest Program (10 USC 2665)

Medicare Eligible Retiree Health Care Fund (10 USC 1111)
Military Retirement Fund (10 USC 1461)

Education Benefits Fund (10 USC 2006)

Host Nation Support for U.S. Relocation Activities (10 USC 2350k)

Hydraulic Mining Debris Reservoir (33 USC 683)


                                                                             Financial Section
                                             120
U.S. Department of Defense Agency Financial Report for FY 2013


Maintenance and Operation of Dams and Other Improvements of Navigable Waters
(16 USC 810(a))

Payments to States (33 USC 701c-3)
Wildlife Conservation (16 USC 670-670(f))

Ainsworth Bequest (31 USC 1321)
DoD Family Housing Improvement Fund (10 USC 2883 (a))

DoD Military Unaccompanied Housing Improvement Fund (10 USC 2883 (a))
Voluntary Separation Incentive Fund (10 USC 1175(h))

Rivers & Harbors Contributed Funds (33 USC 560, 701h)
Concurrent Receipt Accrual Payments to the Military Retirement Fund 10 USC 1466(b)(1)

Rocky Mountain Arsenal, Restoration (100 Statute, 4003 SEC 1367)

DoD Family Housing Improvement Fund, Direct Loan, Financing Account (2 USC 661d)

DoD Family Housing Improvement Fund, Guaranteed Loan, Financing Account (2 USC 661d)

Homeowners Assistance Fund (10 USC 4551-4555; 42 USC 3374(d), Title United States
Code; Public Law 111-5)
Payments to Military Retirement Fund, Defense (10 USC, 1466)

Payment to Department        of   Defense   Medicare-Eligible   Retiree   Health   Care   Fund
(10 USC 1116(a))

Arms Initiative, Guaranteed Loan Financing Account, Army (10 USC 2501, 10 USC 4551-4555)

Medicare-Eligible Retiree Health Fund Contribution, Navy (10 USC 1116)

Medicare-Eligible Retiree Health Fund Contribution, Marine Corps (10 USC 1116)

Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Navy (10 USC 1116)
Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Marine Corps
(10 USC 1116)

Medicare-Eligible Retiree Health Fund Contribution, Army (10 USC 1116)

Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Army (10 USC 1116)
Medicare-Eligible Retiree Health Fund Contribution, National Guard Personnel, Army
(10 USC 1116)
Medicare-Eligible Retiree Health Fund Contribution, Air Force (10 USC 1116)

Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Air Force (10 USC 1116)

Medicare-Eligible Retiree Health Fund Contribution, National Guard Personnel, Air Force
(10 USC 1116)
Department of Defense Vietnam War Commemoration Fund, Defense (P.L. 110-181,
122 Stat. 141 (Sec. 598))



                                                                             Financial Section
                                             121
U.S. Department of Defense Agency Financial Report for FY 2013


The above permanent indefinite appropriations cover a wide variety of purposes to help the
Department accomplish its missions. These purposes primarily include: (1) military retirees’
health care benefits, retirement and survivor pay, and education benefits for veterans;
(2) wildlife habitat restoration and water resources maintenance; (3) relocation of armed
forces within a host nation; (4) separation payments for foreign nationals; and (5) upkeep
of libraries and museums.

Apportionment Categories for Obligations Incurred
Apportionment categories are determined in accordance with the guidance provided in OMB
Circular No. A-11, “Preparation, Submission and Execution of the Budget.” Category A
relates to appropriations for a specific period of time (e.g., Military Personnel appropriation),
and category B relates to appropriations for a specific project (e.g., Military Construction
appropriation). The Department Reported the following amounts of obligations incurred:

 Year Ended September 30, 2013                                                          Dollars in Billions
                                        Apportionment   Apportionment    Exempt From
                                                                                              Total
                                         Category A      Category B     Apportionment
  Obligations Incurred – Direct                 464.6           183.8           136.7              785.1
  Obligations Incurred – Reimbursable            33.7           135.2             0.1              169.0
 Totals Obligations Incurred:           $       498.3   $       319.0   $       136.8    $         954.1



Legal Arrangements Affecting the Use of Unobligated Balances
A portion of the Department’s unobligated balances represent trust fund receipts collected in
the current fiscal year exceeding the amount needed to pay benefits or other valid
obligations. These receipts are temporarily precluded from obligation by law due to a benefit
formula or other limitation. The receipts, however, are assets of the funds and are available
for obligation in the future. The Department operates within the constraints of fiscal law and
has no additional legal arrangements affecting the use of unobligated balances.

Other Disclosures
The SBR includes intra-entity transactions because the statements are presented as
combined.

The Department utilizes borrowing authority for the Military Housing Privatization Initiative
and the Armament Retooling and Manufacturing Support Initiative. Borrowing authority is
used in accordance with OMB Circular A-129, “Managing Federal Credit Programs.”
The Department received additional funding of $87.3 billion to cover obligations incurred
above baseline operations in support of contingency operations.




                                                                                  Financial Section
                                                 122
U.S. Department of Defense Agency Financial Report for FY 2013


NOTE 21. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET
Reconciliation of Net Cost of Operations to Budget                                             Dollars in Millions
As of September 30                                                             2013                  2012
Resources Used to Finance Activities
Budgetary Resources Obligated:
 Obligations incurred                                                      $     954,067.2    $     1,059,305.0
 Less: Spending authority from offsetting collections and recoveries (-)       (230,340.8)          (258,964.9)
 Obligations net of offsetting collections and recoveries                  $     723,726.4    $       800,340.1
 Less: Offsetting receipts (-)                                                  (82,767.6)            (79,238.4)
 Net obligations                                                           $    640,958.8     $       721,101.7
Other Resources:
  Donations and forfeitures of property                                      $           9.9 $         37.5
  Transfers in/out without reimbursement (+/-)                                        (14.6)           66.1
  Imputed financing from costs absorbed by others                                   4,896.8         5,048.1
  Other (+/-)                                                                     32,173.5      (10,465.7)
  Net other resources used to finance activities                             $    37,065.6 $      (5,314.0)
Total resources used to finance activities                                   $   678,024.4 $     715,787.7
Resources Used to Finance Items not Part of the Net Cost of Operations
Change in budgetary resources obligated for goods, services and
benefits ordered but not yet provided:
  Undelivered Orders (-)                                                     $    28,064.4 $    (16,379.3)
  Unfilled Customer Orders                                                        (1,767.8)         3,715.0
Resources that fund expenses recognized in prior Periods (-)                    (92,516.0)      (19,822.5)
Budgetary offsetting collections and receipts that do not affect Net Cost of
                                                                                    2,122.8           966.1
Operations
Resources that finance the acquisition of assets (-)                           (105,940.4)     (105,865.0)
Other resources or adjustments to net obligated resources that do not
affect Net Cost of Operations:
  Less: Trust or Special Fund Receipts Related to exchange in the
                                                                                         0.0            0.0
  Entity’s Budget (-)
  Other (+/-)                                                                   (32,309.2)        10,323.4
Total resources used to finance items not part of the Net Cost of
                                                                             $ (202,346.2) $   (127,062.3)
Operations
Total resources used to finance the Net Cost of Operations                   $   475,678.2 $     588,725.4
Components of the Net Cost of Operations that will not Require or Generate Resources in the Current
Period
Components Requiring or Generating Resources in Future Period:
 Increase in annual leave liability                                        $        189.5     $           253.6
 Increase in environmental and disposal liability                                   624.1                 657.2
 Upward/Downward reestimates of credit subsidy expense (+/-)                        (24.8)                (12.0)
 Increase in exchange revenue receivable from the public (-)                        194.0                   84.6
 Other (+/-)                                                                     42,826.9             124,388.8
Total components of Net Cost of Operations that will Require or
                                                                           $     43,809.7     $       125,372.2
Generate Resources in future periods
Components not Requiring or Generating Resources:
Depreciation and amortization                                              $     44,524.6     $         47,978.8
Revaluation of assets or liabilities (+/-)                                        3,528.3                2,693.3
Other (+/-)
 Trust Fund Exchange Revenue                                                    (51,893.3)            (50,977.7)


                                                                                             Financial Section
                                                       123
U.S. Department of Defense Agency Financial Report for FY 2013


    Reconciliation of Net Cost of Operations to Budget                                       Dollars in Millions
    As of September 30                                                        2013                 2012
     Cost of Goods Sold                                                         66,612.8              78,140.6
     Operating Materiel and Supplies Used                                       12,936.2              27,873.0
     Other                                                                    (37,188.7)            (50,952.0)
    Total Components of Net Cost of Operations that will not Require or
                                                                          $     38,519.9    $         54,756.0
    Generate Resources
    Total components of Net Cost of Operations that will not Require or
                                                                          $     82,329.6    $       180,128.2
    Generate Resources in the current period
    Net Cost of Operations                                                $    558,007.8    $       768,853.6

Other Disclosures
Due to the Department’s financial systems limitations, budgetary data does not agree with
proprietary expenses and capitalized assets. This difference is a previously identified
deficiency. The following adjustments (absolute value) were made to balance the
Reconciliation of Net Cost of Operations to Budget:

                                                                                             Dollars in Millions
    Resources that Finance the Acquisition of Assets                                        $          6,308.4
    Other Components not Requiring or Generating Resources                                  $         79,345.8
    Total Amount                                                                            $         85,654.2


The following Reconciliation of Net Cost of Operations to Budget lines are presented as
combined instead of consolidated due to intra-agency budgetary transactions not being
eliminated:
•      Obligations Incurred

•      Less: Spending Authority from Offsetting Collections and Recoveries
•      Obligations Net of Offsetting Collections and Recoveries

•      Less: Offsetting Receipts
•      Net Obligations

•      Undelivered Orders

•      Unfilled Customer Orders

Other Resources, Other primarily consists of non-exchange gains and losses necessary to
reconcile the proprietary and budgetary amounts, as well as gains and losses from
disposition of assets.

Other Resources or Adjustments to Net Obligated Resources that Do Not Affect Net Cost of
Operations, Other primarily consists of non-exchange gains and losses necessary to
reconcile the proprietary and budgetary amounts.
Components Requiring or Generating Resources in Future Period, Other consists primarily of
future funded expenses.

Components not Requiring or Generating Resources, Other primarily consists of cost
capitalization offsets and other expenses not requiring budgetary resources.

                                                                                           Financial Section
                                                      124
U.S. Department of Defense Agency Financial Report for FY 2013


NOTE 22. DISCLOSURES RELATED TO INCIDENTAL CUSTODIAL
COLLECTIONS
The Department collected $9.8 million of incidental custodial revenues generated primarily
from forfeitures of unclaimed money and property. These funds are not available for use by
the Department. At the end of each fiscal year, the accounts are closed and the balances
are relinquished to the U.S. Treasury.

NOTE 23. FUNDS FROM DEDICATED COLLECTIONS
 Funds from Dedicated Collections                                                                     Dollars in Millions
                                                                           2013
                                                        Rivers and
                                        Harbor           Harbors
                                                                                                          Consolidated
                                      Maintenance       Contributed    Other Funds     Eliminations
                                                                                                             Total
                                      Trust Fund       and Advance
 As of September 30                                        Fund
 Balance Sheet
 Assets
   Fund Balance with Treasury         $      107.5    $     1,093.5    $      949.0    $        0.0      $      2,150.0
   Investments                             7,877.5              0.0           911.9              0.0            8,789.4
   Accounts and Interest Receivable          448.8              3.9             5.0            (2.9)              454.8
   Other Assets                              659.6             30.0           804.9              0.0            1,494.5
 Total Assets                         $    9,093.4    $     1,127.4    $    2,670.8    $       (2.9)     $     12,888.7
 Liabilities and Net Position
   Accounts Payable and Other
                                              13.0           1,125.4           74.2           (10.6)             1,202.0
   Liabilities
 Total Liabilities                    $       13.0    $     1,125.4    $       74.2    $      (10.6)     $      1,202.0
   Unexpended Appropriations          $        0.0    $         0.0    $        0.0    $        0.0      $          0.0
   Cumulative Results of Operations   $    9,080.4    $         2.0    $    2,596.6    $    1,028.8      $     12,707.8
 Total Liabilities and Net Position   $    9,093.4    $     1,127.4    $    2,670.8    $    1,018.2      $     13,909.8

 Statement of Net Cost
   Program Costs                      $     145.3     $       340.9    $    1,296.1    $     (123.1)     $       1,659.2
   Less Earned Revenue                        0.0            (366.9)         (305.0)             0.1              (671.8)
   Net Program Costs                        145.3             (26.0)           991.1         (123.0)                987.4
 Net Cost of Operations               $     145.3     $       (26.0)   $      991.1    $     (123.0)     $         987.4

 Statement of Changes in Net Position
   Net Position Beginning of the
                                      $     8377.2    $         4.8    $    2,410.4    $        0.0      $     10,792.4
   Period
   Net Cost of Operations                    145.3            (26.0)          991.1          (123.0)              987.4
   Budgetary Financing Sources               848.6               0.0         1129.2            938.8            2,916.6
   Other Financing Sources                    (0.1)           (28.8)           48.1           (33.0)              (13.8)
   Change in Net Position             $      703.2    $        (2.8)   $      186.2    $    1,028.8      $      1,915.4
 Net Position End of Period           $    9,080.4    $         2.0    $    2,596.6    $    1,028.8      $     12,707.8




                                                                                              Financial Section
                                                      125
U.S. Department of Defense Agency Financial Report for FY 2013


    Funds from Dedicated Collections                                                                       Dollars in Millions
                                                                          Restated 2012
                                                           Rivers and
                                           Harbor           Harbors
                                                                                                               Consolidated
                                         Maintenance       Contributed      Other Funds     Eliminations
                                                                                                                  Total
                                         Trust Fund       and Advance
    As of September 30                                        Fund
    Balance Sheet
    Assets
      Fund Balance with Treasury         $      102.7    $        979.2    $       862.5    $          0.0    $       1,944.4
      Investments                             7,112.1               0.0            838.1               0.0            7,950.2
      Accounts and Interest Receivable          475.4               2.7              6.2             (7.3)              477.0
      Other Assets                              700.7              31.0            744.3               0.0            1,476.0
    Total Assets                         $    8,390.9    $      1,012.9    $     2,451.1    $        (7.3)    $      11,847.6
    Liabilities and Net Position
      Accounts Payable and Other
                                                 13.7           1,008.0             40.8           (16.4)             1,046.1
      Liabilities
    Total Liabilities                    $       13.7    $      1,008.0    $        40.8    $       (16.4)    $       1,046.1
      Unexpended Appropriations          $        0.0    $          0.0    $         0.0    $          0.0    $           0.0
      Cumulative Results of Operations        8,377.2               4.9          2,410.3          1,175.2            11,967.6
    Total Liabilities and Net Position   $    8,390.9    $      1,012.9    $     2,451.1    $     1,158.8     $      13,013.7

    Statement of Net Cost
      Program Costs                      $       36.2    $        464.4    $      1326.5    $     (110.8)     $       1,716.3
      Less Earned Revenue                         0.0           (499.2)          (317.1)              0.2             (816.1)
      Net Program Costs                          36.2            (34.8)          1,009.4          (110.6)               900.2
    Net Cost of Operations               $       36.2    $       (34.8)    $     1,009.4    $     (110.6)     $         900.2

    Statement of Changes in Net Position
      Net Position Beginning of the
                                         $    7,598.8    $        12.2     $     2,570.8    $         0.0     $      10,181.8
      Period
      Net Cost of Operations                      36.2           (34.8)          1,009.4          (110.6)               900.2
      Budgetary Financing Sources               832.8               0.0            859.8            991.9             2,684.5
      Other Financing Sources                   (18.2)           (42.1)            (10.9)            72.7                 1.5
    Change in Net Position               $      778.4    $        (7.3)    $     (160.5)    $     1,175.2     $       1,785.8
    Net Position End of Period           $    8,377.2    $         4.9     $     2,410.3    $     1,175.2     $      11,967.6



Restatements
In accordance with clarifying language provided by the SFFAS 43: “Funds from Dedicated
Collections: Amending SFFAS 27, Identifying and Reporting Earmarked Funds,” FY 2012
balances were realigned. After evaluating funds against the SFFAS 43 criteria, the following
funds are not considered Funds from Dedicated Collections:

•      Military Retirement Fund

•      Medicare-Eligible Retiree Health Care Fund
•      Armament Retooling and Manufacturing Support Initiative

•      Military Housing Privatization Initiative



                                                                                                    Financial Section
                                                         126
U.S. Department of Defense Agency Financial Report for FY 2013


•   Education Benefit Fund
•   Voluntary Separation Incentive Fund

Other Disclosures
The SFFAS 43 requires disclosure of Funds from Dedicated Collections separate from All
Other Funds on the Balance Sheet. Funds must meet three criteria to be classified as funds
from dedicated collections: (1) a statute committing the use of specifically-identified
revenues provided by non-Federal sources for designated purposes; (2) explicit authority to
retain the revenues; and (3) a requirement to separately account and report on the
revenues. The Department’s funds from dedicated collections are either special or trust
funds and use both receipt and expenditure accounts to report activity to the U.S. Treasury.
There has been no legislation significantly altering the purposes of the funds.
The Total column is shown as consolidated and relates only to Funds from Dedicated
Collections. The Eliminations column includes eliminations associated with Funds from
Dedicated Collections and excludes the offsetting eliminations from All Other Funds. This
exclusion causes assets to not equal liabilities and net position in the note. However, the
amounts in the Total column equal the amounts reported as Funds from Dedicated
Collections on the Balance Sheet.
The Department has the following Funds from Dedicated Collections:

Harbor Maintenance Trust Fund, 26 USC 9505. The United States Army Corps of
Engineers (USACE) Civil Works mission is funded by the Energy and Water Development
Appropriations Act. The Water Resources Development Act of 1986 covers a portion of
USACE operations and maintenance costs for deep draft navigation. The Harbor
Maintenance Trust Fund is available for making expenditures to carry out the functions
specified in the Act and for the payment of all administrative expenses incurred by the
U.S. Treasury, USACE, and the Department of Commerce. Taxes collected from imports,
domestics, passengers, and foreign trade are deposited into the Trust Fund. The Bureau of
Fiscal Services (BFS) manages and invests for the Trust Fund.

Rivers and Harbors Contributed and Advance Funds, 33 USC 701h, 702f, and 703.
Whenever any state or political subdivision offers to advance funds for a flood control
project authorized by law, the Secretary of the Army may accept such funds and expend
them in the immediate prosecution of such work. The funding is used to construct, improve,
and maintain levees, water outlets, flood control, debris removal, rectification and
enlargement of river channels, etc. in the course of flood control and river and harbor
maintenance.

Other Funds from Dedicated Collections
Special Recreation Use Fees, 16 USC 4061-6a note. The USACE charges and collects Special
Recreation Use Fees at campgrounds located at lakes or reservoirs under their jurisdiction.
Allowable fees include daily use fees, admission fees, recreational fees, annual pass fees,
and other permit type fees. Receipts cover operation and maintenance of recreational sites.

Hydraulic Mining in California, Debris, 33 USC 683. Operators of hydraulic mines allowing
debris to flow to a body restrained by a dam or other work erected by the California Debris

                                                                           Financial Section
                                            127
U.S. Department of Defense Agency Financial Report for FY 2013


Commission are required to pay an annual tax as determined by the Commission. The
USACE collects taxes and expends funds under the direction of the Department of the Army.
Funds repay advances by the Federal government or other agencies for construction,
restraining works, settling reservoirs, and maintenance.

Payments to States, Flood Control Act of 1954, 33 USC 701c-3. The USACE collects receipts
for the leasing of lands acquired by the U.S. for flood control, navigation, and allied
purposes (including the development of hydroelectric power). Funds received are
appropriated the following fiscal year with seventy-five percent of funds provided to the
state where the property is located. States may expend the funds for the benefit of public
schools and public roads of the counties where the property is located, or for defraying
county government expenses.
Maintenance and Operation of Dams and Other Improvements of Navigable Waters,
16 USC 803(f) and 810. The Federal Energy Regulatory Commission (FERC) assesses
charges against licensees when a reservoir or other improvement is constructed by the U.S.
All proceeds from Indian reservations are credited to the Indians of the reservations. All
other proceeds arising from licenses, except those established by the FERC for
administrative reimbursement, are paid to the U.S. Treasury and allocated for specific uses.
The Department of the Army is allocated fifty percent of charges from all licenses, except
licenses for the occupancy and use of public lands and national forests. These funds are
deposited in a special fund and used for maintenance, operation, and improvement of dams
and other navigation structures owned by the U.S., or in construction, maintenance, or
operation of headwater, or other improvements to navigable waters of the U.S.

Fund for Non-Federal Use of Disposal Facilities (for dredged material), 33 USC 2326.
Non-Federal interests may use dredged material disposal facilities under the jurisdiction of,
or managed by, the Secretary of the Army if the Secretary determines use will not reduce
the availability of the facility for project purposes. Fees may be imposed to recover capital,
operation, and maintenance costs of the disposal facility from which the fees were collected.

Coastal Wetlands Restoration Trust Fund and Coastal Wetlands Planning, Protection, and
Restoration Act, 16 USC 3951-3956. The USACE, Environmental Protection Agency, and Fish
and Wildlife Service are authorized to work with the State of Louisiana to develop, review,
evaluate, and approve a plan to achieve a goal of “no net loss of wetlands” in coastal
Louisiana. The USACE is also responsible for allocating funds. Federal contributions are
75 percent of project costs or 85 percent if the state has an approved Coastal Wetlands
Conservation Plan. This Trust Fund receives funding from the Sport Fish Restoration and
Boating Trust Fund.
Inland Waterways Trust Fund, 26 USC 9506. Excise taxes from the public are used by
USACE for navigation, construction, and rehabilitation projects on inland waterways. The
BFS manages and invests for the Trust Fund.

Defense Commissary Agency Surcharge Trust Fund, 10 USC 2685. Surcharge on sales of
commissary goods finance operating expenses and capital purchases of the Commissary
System, precluded by law from being paid with appropriated funds. Revenue is generated
through a five percent surcharge applied to each sale. These funds finance
commissary-related information technology investments, equipment, advance design


                                                                             Financial Section
                                             128
U.S. Department of Defense Agency Financial Report for FY 2013


modifications to prior year construction projects, and maintenance and repair of facilities
and equipment.

NOTE 24. FIDUCIARY ACTIVITIES
 Schedule of Fiduciary Activity                                                                    Dollars in Millions
 As of September 30                                                               2013                    2012
 Fiduciary net assets, beginning of year                                     $           158.7    $              199.5
 Contributions                                                                           194.1                   222.5
 Investment earnings                                                                      12.4                    15.2
 Distributions to and on behalf of beneficiaries                                       (223.3)                 (278.5)
 Increase/(Decrease) in fiduciary net assets                                            (16.8)                  (40.8)
 Fiduciary net assets, end of period                                         $           141.9    $              158.7


 Schedule of Fiduciary Net Assets                                                                  Dollars in Millions
 As of September 30                                                               2013                    2012
 Fiduciary Assets
  Cash and cash equivalents                                                  $           141.9    $              158.7
 Total Fiduciary Net Assets                                                  $           141.9    $              158.7

Fiduciary activities exist when the Department has collected, received, held, or made
disposition of assets on behalf of an individual or non-Federal entity. Fiduciary assets are
not recognized on the Balance Sheet.

Public Law 89-538 authorized the Department, through the Savings Deposit Program, to
collect voluntary contributions from members of the Armed Forces serving in designated
areas. These contributions and earned interest are deposited in the U.S. Treasury on behalf
of the members.

NOTE 25. OTHER DISCLOSURES
 Other Disclosures                                                                                    Dollars in Millions
                                                                         2013 – Asset Category
                                                       Land and
                                                                     Equipment           Other               Total
 As of September 30                                    Buildings
 Entity as Lessee – Operating Leases
   Future Payments Due
   Fiscal Year 2014                                $           509.4 $        35.5 $          55.7 $             600.6
   Fiscal Year 2015                                            516.4          35.1            57.4               608.9
   Fiscal Year 2016                                            516.2          35.2            59.4               610.8
   Fiscal Year 2017                                            520.7          35.4            61.4               617.5
   Fiscal Year 2018                                            511.4          35.5            63.6               610.5
   After 5 Years                                             1,287.8           4.3            66.0             1,358.1
 Total Future Lease Payments Due                   $         3,861.9 $       181.0 $         363.5 $           4,406.4


Operating leases do not transfer the benefits and risks of ownership of capital leases.
Payments are expensed over the life of the lease. Office space is the largest component of
land and building leases. Future year cost projections use the Consumer Price Index.



                                                                                                 Financial Section
                                                       129
U.S. Department of Defense Agency Financial Report for FY 2013


Other leases are primarily commercial leases with the general public and include automobile
leases.

NOTE 26. RESTATEMENTS
During FY 2013, the Department implemented SFFAS 43, “Funds from Dedicated
Collections: Amending SFFAS 27, Identifying and Reporting Earmarked Funds.” SFFAS 43
provides clarifying language when classifying funds and additional reporting alternatives for
financial statement presentation and note disclosure. Prior year balances were restated to
comply with the current presentation. Refer to Note 19, Disclosures on Statement of
Changes in Net Position and Note 23, Funds from Dedicated Collections, for additional
information.




                                                                            Financial Section
                                            130
U.S. Department of Defense Agency Financial Report for FY 2013


REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
Federal financial reporting requires DoD to report on its stewardship over certain resources
that cannot be measured in traditional financial reports. These resources do not meet the
criteria for assets and liabilities required to be reported in the financial statements, but are
important to understand the operations and financial condition of DoD at the date of the
financial statements and in subsequent periods.

The Department’s stewardship investments are comprised of, and are measured in terms of,
expenditures for: (1) Nonfederal Physical Property (federally-financed, but not federally
owned); and (2) federally-financed Research and Development (R&D). Information on
additional reporting requirements for Nonfederal Physical Property and R&D follows.

NON-FEDERAL PHYSICAL PROPERTY
The Nonfederal Physical Property investments support the purchase, construction, or major
renovation of physical property owned by state and local governments. In addition,
Nonfederal Physical Property investments include federally-owned physical property
transferred to state and local governments. The Department participates in cost-sharing
agreements with nonfederal sponsors which are governed under numerous Water Resources
Development Acts. The Department’s transferred assets include expenditures supporting the
design, build, and construction services/management for the missions of commercial
navigation, flood/storm damage reduction, hydropower, regulatory, environmental,
recreation and water supply.

 Non-Federal Physical Property
 Department of Defense Consolidated – Non-Federal Physical Property
 Yearly Investments in State and Local Governments
 For Fiscal Years 2013 through 2009                                                                          Dollars in Millions
              Categories                        2013                 2012            2011            2010            2009
 Transferred Assets:
 National Defense Mission Related           $        1,376.8   $       1,445.4   $     2,304.5   $     2,126.2   $      1,224.7
 Funded Assets:
 National Defense Mission Related           $           11.8   $           7.7   $        12.0   $         0.0   $         26.7
 Total                                      $        1,388.6   $       1,453.1   $     2,316.5   $     2,126.2   $      1,251.4



INVESTMENTS IN RESEARCH AND DEVELOPMENT
Investment values included in this report are based on R&D expenditures. The R&D
programs are classified in the following categories: Basic Research, Applied Research, and
Development. The amounts reported in the Investments in R&D table show outlays from
FY 2009 – FY 2013 for all DoD Components. The definition for each type of R&D Category
and Subcategories are explained below.

Basic Research is the systematic study to gain knowledge or understanding of the
fundamental aspects of phenomena and of observable facts without specific applications,
processes, or products in mind. Basic Research involves the gathering of a fuller knowledge
or understanding of the subject under study. Major outputs are scientific studies and
research papers.


                                                                                                        Financial Section
                                                               131
U.S. Department of Defense Agency Financial Report for FY 2013


Applied Research is the systematic study to gain knowledge or understanding necessary for
determining the means by which a recognized and specific need may be met. It is the
practical application of such knowledge or understanding for the purpose of meeting a
recognized need. This research points toward specific military needs with a view toward
developing and evaluating the feasibility and practicability of proposed solutions and
determining their parameters. Major outputs are scientific studies, investigations, research
papers, hardware components, software codes, or limited construction of a weapon system
component, to include non-system-specific development efforts. Development takes what
has been discovered or learned from basic and applied research and uses it to establish
technological feasibility, assessment of operability, and production capability. Development
consists of the five stages defined in the Investments in R&D table.

Advanced Technology Development is the systematic use of the knowledge or
understanding gained from research and directed toward proof of concept and feasibility
rather than directed toward the development of hardware for service use. It employs
demonstration activities intended to test a technology or method.

Advanced Component Development and Prototypes evaluates integrated technologies in an
operating environment as realistic as possible to assess the performance or cost reduction
potential of advanced technology. Programs in this phase are generally system specific.
Major outputs of Advanced Component Development and Prototypes are hardware and
software components and complete weapon systems ready for operational and
developmental testing and field use.

System Development and Demonstration concludes the program or project and prepares it
for production. It consists primarily of preproduction efforts, such as logistics and repair
studies. Major outputs are weapons systems finalized for complete operational and
developmental testing.

Research, Development, Test, and Evaluation Management Support bolsters installations
and operations for general research and development use. This category includes costs
associated with test ranges, military construction maintenance support for laboratories,
operation and maintenance of test aircraft and ships, and studies and analyses furthering
the Research and Development program.

Operational Systems Development finances projects, programs or upgrades in engineering
and manufacturing development stages which have received approval for production,
including production funds that have been budgeted in subsequent fiscal years.




                                                                           Financial Section
                                            132
U.S. Department of Defense Agency Financial Report for FY 2013


Investments in Research and Development (R&D)
Department of Defense Consolidated
Yearly Investments in Research and Development
For the Current and Four Preceding Fiscal Years                                                      Dollars in Millions
          Categories                       2013             2012           2011           2010              2009
Basic Research                         $    1,841.5    $     1,645.3   $    1,816.6   $    1,805.5     $       821.0
Applied Research                            5,477.4          5,819.3        6,848.3        5,758.4           2,604.6
Development
 Advanced Technology
                                             4,898.3         5,868.0        6,024.3        6,353.4            2,263.2
 Development
 Advanced Component
                                            12,464.8        13,005.0       13,964.2       14,304.6           12,148.3
 Development and Prototypes
 System Development and
                                            12,524.6        11,926.3       13,882.0       15,156.7           21,501.9
 Demonstration
 Research, Development, Test
 and Evaluation Management                   4,906.5         5,640.5        5,659.2        5,503.6            5,141.3
 Support
 Operational Systems
                                            21,180.9        23,274.6       23,861.3       23,986.2           42,450.6
 Development
Totals:                                $   63,294.0    $    67,179.0   $   72,055.9   $   72,868.4     $     86,930.9




                                                                                              Financial Section
                                                           133
U.S. Department of Defense Agency Financial Report for FY 2013


REQUIRED SUPPLEMENTARY INFORMATION
This section includes the deferred maintenance and repairs information and Statement of
Disaggregated Budgetary Resources.

REAL PROPERTY DEFERRED MAINTENANCE AND REPAIRS
    Real Property Deferred Maintenance and Repairs
    As of September 30, 2013                                                                   Dollars in Millions
                                                                         Current Fiscal Year (CFY)
                                                                              2. Required Work
                                                                  1. Plant
                               Property Type                                      (Deferred
                                                                Replacement                    3. Percentage
                                                                               Maintenance &
                                                                   Value
                                                                                   Repair)
        1. Category 1                                       $        948,609 $        96,679                10%
        2. Category 2                                       $         28,993 $         4,425                15%
        3. Category 3                                       $         21,641 $         3,480                18%


The deferred maintenance and repairs amount is based on facility Q-ratings found in the
Department’s real property inventory. Q-ratings represent work needed to bring a facility to
a fully serviceable condition with no repair needs. The reported deferred maintenance is the
difference between the facility Q-rating and the target Q-rating that represents the
acceptable operating condition established by each Component within the Department. The
percentage column reflects the percent of total plant replacement value for each category
represented by deferred maintenance.

Facility Categories are as follows:

•      Category 1: Buildings, Structures, and Utilities that are enduring and required to support
       an ongoing mission, including multi-use Heritage Assets.

•      Category 2: Buildings, Structures, and Utilities that are excess to requirements or
       planned for replacement or disposal, including multi-use Heritage Assets.

•      Category 3: Buildings, Structures, and Utilities that are Heritage Assets.




                                                                                       Financial Section
                                                134
U.S. Department of Defense Agency Financial Report for FY 2013


Military Equipment Deferred Maintenance and Repairs
Depot maintenance requirements for military equipment are developed during the annual
budget process. The table below shows the deferred unfunded requirements for the depot
maintenance program.

Military Equipment Deferred Maintenance and Repairs
For Fiscal Year Ended September 30, 2013
Major Categories                                                        Dollars in Millions
1. Aircraft                                                             $             618.7
2. Automotive Equipment                                                 $              78.4
3. Combat Vehicles                                                      $              61.7
4. Construction Equipment                                               $               8.7
5. Electronics and Communications Systems                               $             138.8
6. Missiles                                                             $             116.6
7. Ships                                                                $             707.6
8. Ordnance Weapons and Munitions                                       $              64.8
9. All Other Items Not Identified to above Categories                   $             366.3
Total                                                                   $           2,161.6




                                                                      Financial Section
                                                        135
U.S. Department of Defense Agency Financial Report for FY 2013


Statement of Disaggregated
                                                                                                                           2013
Budgetary Resources
For the Years Ended                                                               Research,
                                                                                                    Family Housing/       Military                                Operations,
September 30                                 Military                            Development,
                                                              Procurement                              Military          Retirement           Civil Works         Readiness &         2013 Combined        2012 Combined
                                            Personnel                              Test and
                                                                                                     Construction         Benefits                                  Support
Dollars in Millions                                                               Evaluation
Budgetary Resources
Unobligated balance, brought
                                        $         2,463.8 $         63,347.7 $         15,203.9 $           16,057.9 $                0.0 $          8,610.1 $          40,009.1 $          145,692.5 $          162,271.1
forward, October 1
Adjustment to unobligated balance
                                                        0.0              0.0                 0.0                 0.0                  0.0                   0.0                 0.0                0.0                  0.0
brought forward, Oct 1
  Unobligated balance brought
                                                  2,463.8           63,347.7           15,203.9             16,057.9                  0.0            8,610.1            40,009.1            145,692.5            162,271.1
  forward, October 1, as adjusted
Recoveries of prior year unpaid
                                                 14,394.5           12,838.5             2,665.7             2,431.7                  0.0              415.3            30,426.9             63,172.6             65,533.9
obligations
Other changes in unobligated
                                                  (406.3)           (1,770.8)            (825.5)             (301.7)                  0.0                   0.0        (10,513.6)           (13,817.9)           (12,952.1)
balance
Unobligated balance from prior year
                                                 16,452.0           74,415.4           17,044.1             18,187.9                  0.0            9,025.4            59,922.4            195,047.2            214,852.9
budget authority, net
Appropriations (discretionary and
                                                146,740.1           95,634.8           60,131.7              6,995.5           63,194.3             10,431.7           350,407.8            733,535.9            792,178.8
mandatory)
Borrowing Authority (discretionary
                                                        0.0              0.0                 0.0                 0.0                  0.0                   0.0                 0.0                0.0                  0.0
and mandatory)
Contract Authority (discretionary and
                                                        0.0              0.0                 0.0                 0.0                  0.0                   0.0         65,506.0             65,506.0             80,486.2
mandatory)
Spending Authority from offsetting
collections (discretionary and                    1,246.8           2,664.00             7,695.8             5,129.6              128.5             10,821.8            76,026.2            103,712.7            117,242.4
mandatory)
Total Budgetary Resources               $       164,438.9 $        172,714.2 $         84,871.6 $           30,313.0 $         63,322.8 $           30,278.9 $         551,862.4 $         1,097,081.8 $        1,204,760.3
Status of Budgetary Resources:
Obligations Incurred                            161,374.3          120,858.9           70,187.8             15,356.8           63,322.8             17,917.2           504,970.6            953,988.4           1,059,067.8
Unobligated balance, end of year:
  Apportioned                                       692.7           47,045.0           12,943.3             13,300.0                  0.0           11,038.0            24,877.8            109,896.8            115,696.1
  Exempt from Apportionment                           0.0                0.0                0.0                  0.0                  0.0            1,319.5             2,727.1              4,046.6              3,976.1
  Unapportioned                                   2,371.9            4,810.3            1,740.5              1,656.2                  0.0                4.2            19,286.9             29,870.0             26,020.3
Unobligated balance brought
                                        $         3,064.6 $         51,855.3 $         14,683.8 $           14,956.2 $                0.0 $         12,361.7 $          46,891.8 $          143,813.4 $          145,692.5
forward, end of year
Total Budgetary Resources               $       164,438.9 $        172,714.2 $         84,871.6 $           30,313.0 $         63,322.8 $           30,278.9 $         551,862.4 $         1,097,801.8 $        1,204,760.3




                                                                                                                                                                                            Financial Section
                                                                                                         136
U.S. Department of Defense Agency Financial Report for FY 2013


Statement of Budgetary
                                                                                                                           2013
Resources
For the Years Ended                                                                Research,
                                                                                                    Family Housing/       Military                              Operations,
September 30                                  Military                            Development,
                                                               Procurement                             Military          Retirement         Civil Works         Readiness &         2013 Combined       2012 Combined
                                             Personnel                              Test and
                                                                                                     Construction         Benefits                                Support
Dollars in Millions                                                                Evaluation
Change in Obligated Balance
  Unpaid obligations
Unpaid obligations, brought forward,
                                         $        11,975.7 $        151,469.5 $         47,712.4 $          28,530.9 $          4,643.2 $          8,374.7 $         215,863.8 $          468,570.2 $         454,926.2
October 1 (Gross)
Adjustments to unpaid obligations,
                                                         0.0              0.0                0.0                 0.0                  0.0                 0.0                 0.0                0.0                 0.0
start of year
Obligations incurred                             161,374.3           120,858.9           70,187.8            15,356.8          63,322.8            17,917.2           504,970.6            953,988.4        1,059,067.8
Outlays (gross)                                (145,219.5)         (115,344.9)         (71,741.2)          (18,288.5)        (62,620.8)          (18,062.6)         (490,743.3)          (922,020.8)        (979,889.9)
Actual Transfers, unpaid obligations
                                                         0.0              0.0                0.0                 0.0                  0.0                 0.0                 0.0                0.0                 0.0
(net)
Recoveries of prior year unpaid
                                                (14,394.5)          (12,838.5)          (2,665.7)           (2,431.7)                 0.0           (415.3)          (30,426.9)           (63,172.6)          (65,533.9)
obligations
Unpaid Obligations, end of year                   13,736.0          144,145.0           43,493.3            23,167.5            5,345.2            7,814.0           199,664.2            437,365.2           468,570.2
  Uncollected Payment
Uncollected customer payments from
                                                   (126.9)           (4,239.5)          (5,720.5)          (12,277.8)                 0.0         (2,176.7)          (53,412.0)           (77,953.4)          (75,184.3)
Federal Sources, end of year
Change in uncollected pymts, Fed
                                                    (60.8)               72.5               98.5             2,302.1                  0.0            235.4            (1,898.2)               749.5            (2,769.1)
sources
Actual transfers, uncollected pymts,
                                                         0.0              0.0                0.0                 0.0                  0.0                 0.0                 0.0                0.0                 0.0
Fed sources
Uncollected pymts, Fed sources, end
                                                   (187.7)           (4,167.0)          (5,622.0)           (9,975.7)                 0.0         (1,941.3)          (55,310.2)           (77,203.9)          (77,953.4)
of year
Obligated balance, start of year         $        11,848.8 $        147,230.0 $         41,991.9 $          16,253.1 $          4,643.2 $          6,198.0 $         162,451.8 $          390,616.8 $         379,741.9
Obligated balance, end of year           $        13,548.3 $        139,978.0 $         37,871.3 $          13,191.8 $          5,345.2 $          5,872.7 $         144,354.0 $          360,161.3 $         390,616.8
Budget Authority and Outlays, Net:
Budget Authority, gross (discretionary
                                         $       147,986.9 $         98,298.8 $         67,827.5 $          12,125.1 $        63,322.8 $          21,253.5 $         491,940.0 $          902,754.6 $         989,907.4
and mandatory)
Actual offsetting collections
                                                 (1,186.1)           (2,741.0)          (7,794.5)           (7,431.7)           (128.5)          (10,963.5)         (137,664.7)          (167,910.0)         (190,586.0)
(discretionary and mandatory )
Change in uncollected customer
payments from Federal Sources                       (60.8)               72.5               98.5             2,302.1                  0.0            235.4            (1,898.2)               749.5            (2,769.1)
(discretionary and mandatory)
Anticipated offsetting collections
                                                         0.0              0.0                0.0                 0.0                  0.0                 0.0                 0.0                0.0                 0.0
(discretionary and mandatory)
Budget authority, net
                                         $       146,740.0 $         95,630.3 $         60,131.5 $           6,995.5 $        63,194.3 $          10,525.4 $         352,377.1 $          735,594.1 $         796,552.3
(discretionary and mandatory)
Outlays, gross (discretionary and
                                         $       145,219.5 $        115,344.9 $         71,741.2 $          18,288.5 $        62,620.8 $          18,062.6 $         490,743.3 $          922,020.8 $         979,889.9
mandatory)


                                                                                                                                                                                         Financial Section
                                                                                                        137
U.S. Department of Defense Agency Financial Report for FY 2013


Statement of Budgetary
                                                                                                                     2013
Resources
For the Years Ended                                                          Research,
                                                                                              Family Housing/       Military                             Operations,
September 30                            Military                            Development,
                                                         Procurement                             Military          Retirement         Civil Works        Readiness &        2013 Combined       2012 Combined
                                       Personnel                              Test and
                                                                                               Construction         Benefits                               Support
Dollars in Millions                                                          Evaluation
Actual offsetting collections
                                           (1,186.1)           (2741.0)           (7,794.5)           (7,431.7)           (128.5)          (10,963.5)        (137,664.7)         (167,910.0)         (190,586.0)
(discretionary and mandatory)
Outlays, net (discretionary and
                                           144,033.4          112,603.9           63,946.7            10,856.8          62,492.3             7,099.1          353,078.6           754,110.8           789,303.9
mandatory)
Distributed offsetting receipts                    0.0            (0.8)                0.0                 0.0         (79,998.2)             (806.7)          (1,961.9)          (82,767.6)          (79,238.4)
Agency outlays, net (discretionary
                                   $       144,033.4 $        112,603.1 $         63,946.7 $          10,856.8 $       (17,505.9) $          6,292.4 $        351,116.7 $         671,343.2 $         710,065.5
and mandatory)




                                                                                                                                                                                 Financial Section
                                                                                                  138
U.S. Department of Defense Agency Financial Report for FY 2013


Combined Statement of
                                                             Non Budgetary
Budgetary Resources
For the Years ended September 30
Dollars in Millions
                                         Other               2013 Combined         2012 Combined
Budgetary Resources
Unobligated balance, brought
                                     $            15.5   $              15.5   $               17.5
forward, October 1
  Unobligated balance brought
                                     $            15.5   $              15.5   $               17.5
  forward, October 1, as adjusted
Recoveries of prior year unpaid
                                                   0.0                   0.0                    0.0
obligations
Other changes in unobligated
                                                   0.0                   0.0                    0.0
balance
Unobligated balance from prior
                                                  15.5                  15.5                   17.5
year budget authority, net
Appropriations (discretionary and
                                                   0.0                   0.0                    0.0
mandatory)
Borrowing Authority (discretionary
                                                  26.9                  26.9                  172.6
and mandatory)
Contract Authority (discretionary
                                                   0.0                   0.0                    0.0
and mandatory)
Spending Authority from offsetting
collections (discretionary and                    83.2                  83.2                   62.6
mandatory)
Total Budgetary Resources            $           125.6   $             125.6   $              252.7
Status of Budgetary Resources:
Obligations Incurred                 $            78.8   $              78.8   $              237.2
Unobligated balance, end of year:
  Apportioned                                      0.0                   0.0                    1.6
  Exempt from Apportionment                        0.0                   0.0                    0.0
  Unapportioned                                   46.8                  46.8                   13.9
Unobligated balance brought
                                     $            46.8   $              46.8   $               15.5
forward, end of year
Total Budgetary Resources            $           125.6   $             125.6   $              252.7




                                                                                   Financial Section
                                                 139
U.S. Department of Defense Agency Financial Report for FY 2013


Statement of Disaggregated
                                                               Non Budgetary
Budgetary Resources
For the Years ended September 30         Other                 2013 Combined          2012 Combined
Dollars in Millions
Change in Obligated Balance
  Unpaid obligations:
Unpaid obligations, brought
                                     $            541.8    $             541.8    $              569.1
forward, October 1 (gross)
Obligations incurred                                78.8                   78.8                   237.2
Outlays (gross)                                  (319.9)                (319.9)                 (264.5)
Recoveries of prior year unpaid
                                                    0.0                    0.0                     0.0
obligations
Unpaid obligations, end of year                   300.7                  300.7                   541.8
  Uncollected payments:
Uncollected pymts, Fed sources,
                                                  (83.5)                 (83.5)                  (99.9)
brought forward, October 1
Change in uncollected customer
                                                   31.1                   31.1                    16.4
payments, Fed sources
Uncollected pymts, Fed sources,
                                                  (52.4)                 (52.4)                  (83.5)
end of year
Obligated balances, start of year                 458.3                  458.3                   469.2
Obligated balance, end of year
                                     $            248.3    $             248.3    $              458.3
(net)
Budget Authority and Outlays, Net:
Budget Authority, gross
                                                  110.1                  110.1                   235.2
(discretionary and mandatory)
Actual offsetting collections
                                                 (126.7)                (126.7)                  (92.6)
(discretionary and mandatory)
Change in uncollected customer
payments from Federal Sources                      31.1                   31.1                    16.4
(discretionary and mandatory)
Anticipated offsetting collections
                                                    0.0                    0.0                     0.0
(discretionary and mandatory)
Budget authority, net
                                     $             14.5    $              14.5    $              159.0
(discretionary and mandatory)
Outlays, gross (discretionary and
                                                  319.9                  319.9                   264.5
mandatory)
Actual offsetting collections
                                                 (126.7)                (126.7)                  (92.6)
(discretionary and mandatory)
Outlays, net (discretionary and
                                                  193.2                  193.2                   171.9
mandatory)
Distributed offsetting receipts                     0.0                    0.0                     0.0
Agency outlays, net
                                     $            193.2    $             193.2    $              171.9
(discretionary and mandatory)




                                                                                      Financial Section
                                                 140
